<html>
<title> - SHOULD MEXICO HOLD VETO POWER OVER U.S. BORDER SECURITY DECISIONS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                  SHOULD MEXICO HOLD VETO POWER OVER 
                    U.S. BORDER SECURITY DECISIONS?

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 17, 2006

                               __________

                           Serial No. 109-147

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-604                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                            AUGUST 17, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, Committee 
  on the Judiciary...............................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Committee on the Judiciary     3

                               WITNESSES

Mr. Leo Samaniego, Sheriff, El Paso County
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Ms. Kathleen Walker, President-Elect, American Immigration 
  Lawyers Association
  Oral Testimony.................................................    11
  Prepared Statement.............................................    14
Mr. Richard Wiles, Chief of Police, El Paso Police Department
  Oral Testimony.................................................    59
  Prepared Statement.............................................    61
Ms. Alison Siskin, Senior Analyst, Congressional Research Service
  Oral Testimony.................................................    77
  Prepared Statement.............................................    80
Mr. Andrew Ramirez, Chairman, Friends of the Border Patrol
  Oral Testimony.................................................   115
  Prepared Statement.............................................   118

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   191
Letter from Texas State Senator Eliot Shapleigh..................   193
Letter from Mexican American Legal Defense and Educational Fund 
  and the National Council of La Raza............................   207
Statement of Luis Figueroa, Legislative Staff Attorney, Mexican 
  American Legal Defense and Educational Fund....................   209
Letter from the Committee on Migration of the U.S. Conference of 
  Catholic Bishops...............................................   216
``Mayor's Congreso on Immigration Reform Resolution''............   218


   SHOULD MEXICO HOLD VETO POWER OVER U.S. BORDER SECURITY DECISIONS?

                              ----------                              


                        TUESDAY, AUGUST 17, 2006

                  House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., at the 
Chamizal National Memorial Park Theater, 800 South San Marcial, 
El Paso, Texas, the Honorable F. James Sensenbrenner, Jr. 
(Chairman of the Committee) presiding.
    Chairman Sensenbrenner. The Committee on the Judiciary will 
come to order. The Chair notes the presence of a quorum for the 
purpose of taking testimony.
    With me here today are Congressman John Hostettler of 
Indiana, the Chairman of the Subcommittee on Immigration; 
Congressman Louis Gohmert of the northeastern part of Texas; 
Congressman Jack Kingston of Georgia; Congresswoman Sheila 
Jackson Lee of Texas.
    Congressman Sylvestre Reyes has got an engagement about 
now, and when he is done with that engagement, he will come to 
join us as well.
    And I am Congressman Jim Sensenbrenner of Wisconsin, the 
Chair of the House Judiciary Committee.
    I would like to welcome everybody to the second field 
hearing of the Committee on the subject of illegal immigration. 
The purpose of this series of hearings is to examine the 
challenges our nation currently faces with regard to illegal 
immigration and the impact that the Reid-Kennedy immigration 
bill passed by the Senate would have if it were to become law.
    The Committee's first hearing examined the enormous cost 
illegal immigration imposes upon American taxpayers and social 
services. The focus of today's hearing is the issue of whether 
the United States should be forced to prospectively consult 
with a foreign government when taking steps to strengthen the 
security of our borders, something that section 117 of the 
Reid-Kennedy bill requires.
    Today's hearing will also look at the social and fiscal 
consequences of large-scale illegal immigration, such as drug 
smuggling, alien trafficking and violent crime in El Paso and 
the other cities and towns along the southwest border and 
examine whether the Reid-Kennedy bill would address or merely 
compound these problems.
    A nation's sovereignty is defined in part by the ability to 
control its borders. President Reagan once remarked that, ``A 
nation without borders is not really a nation.''
    The United States has historically derived strength from 
its embrace of legal immigrants from all corners of the globe. 
However, as a sovereign nation, the U.S. must also maintain the 
sole power to determine who may enter its borders and under 
what conditions.
    When more than a half million individuals enter the country 
illegally or fail to abide by the terms of their entry on an 
annual basis, it not only erodes U.S. sovereignty but presents 
a clear threat to American citizens in the post-9/11 world.
    America's southern neighbor, Mexico, recognizes the 
importance of being able to control its borders and accordingly 
has very tough laws and practices to limit the entry of non-
Mexicans into that country. One might question, however, 
whether they respect the United States' right to control its 
own borders. According to a New York Times article published on 
May 25th of this year, then candidate and now newly elected 
President Felipe Calderon stated defiantly, ``The more walls 
they build, the more walls we will jump.''
    If enacted, the Reid-Kennedy bill would require that before 
the U.S. can construct any additional fencing and related 
border security structures along our southern borders, we must 
consult with Federal, State and local Mexican officials. The 
mandate in the Senate bill represents an unprecedented 
surrender of America's sovereignty. Moreover, it defies common 
sense to require that proposals to strengthen our border 
security be vetted by the same officials who have actively 
encouraged the exodus of their nationals across our southern 
border.
    In addition to illegal immigrants who cross unprotected 
sectors of our southern border in search of improved economic 
conditions, the lack of a border fence allows those involved in 
drug trafficking and human smuggling operations, as well as 
other violent criminal aliens, virtually unobstructed movement 
across the border.
    Despite the daily threat that this criminal element poses 
to cities and towns along the border and the fact that local 
law enforcement officials are often outmanned and outgunned, 
they faithfully perform their duty to fight such criminal 
activity as best they can. As a result, there are so many 
criminal aliens in the jails of El Paso and other border towns 
that city budgets are strained to pay for their detention.
    H.R. 4437, the House-passed immigration reform bill that I 
authored along with Chairman Peter King of the Homeland 
Security Committee, authorizes $100 million a year to help 
border community law enforcement agencies cope with the cost of 
crime committed by illegal immigrants and the Mexican 
professional criminals. The Reid-Kennedy bill has no such 
provision.
    Finally, the Reid-Kennedy bill would prohibit local 
sheriffs and police from assisting with the vast majority of 
immigration enforcement that's civil in nature. This would 
deprive local law enforcement of vital tools they need to 
govern their communities and deny the Department of Homeland 
Security the vital assistance it could otherwise count on in 
enforcing our immigration laws. H.R. 4437 takes the opposite 
and better approach of clarifying that local law enforcement 
can voluntarily assist in the enforcement of all of our 
immigration laws.
    Before I recognize Representative Jackson Lee for opening 
remarks, I would like to remind Members and witnesses that this 
hearing is being conducted consistent with all applicable House 
and Committee Rules of Procedure. Therefore, I ask witnesses to 
limit their remarks to 5 minutes of oral testimony and will 
recognize Members for 5 minutes of questioning, alternating 
between minority and majority Members seeking recognition.
    In addition, because we have Members of Congress present 
today who are not Members of the Judiciary Committee, I ask 
unanimous consent that they be permitted to participate in 
today's hearing, and this specifically applies to Congressman 
Kingston and Congressman Reyes.
    And without objection, so ordered.
    At this point, I ask unanimous consent that all opening 
statements be included in the record and recognize the 
Gentlewoman from Texas, Ms. Jackson Lee, for her opening 
remarks.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Thank 
you very much for holding this hearing in El Paso, Texas. I 
know, on behalf of Congressman Reyes, whose district we are in, 
we are appreciative of that. An opportunity has come to this 
community, as it has come to Houston and as it has come to 
Laredo.
    However, my disappointment in all of the hearings at--that 
we have had the opportunity to participate in is that they have 
not been hearings to seek the input of the community at hand, 
whether they are proponents or opponents of the question before 
us. The hearings, of course, have been held by different 
Committees. But we have come to different cities under the 
pretense of listening to the American people. And we are not 
listening to the American people, for we are not allowing a 
public input to these proceedings.
    I am delighted, however, and I thank you, Mr. Chairman, as 
I understand you were able to visit the Mexican/El Paso or 
Texas border and had an opportunity to see Border Patrol agents 
and others working collaboratively and cooperatively together.
    Let us be very clear, the Chairman who held the hearing in 
Houston yesterday made it very clear on the record, ``We're 
here to promote and pump up H.R. 4437, the House bill.'' But 
the question is never raised, when you're here to pump up and 
support H.R. 4437, that that legislation creates felony status 
for millions and millions of those within--inside the U.S. 
border. That is really the question that should be answered. 
All other questions could be answered in the reconciliation of 
the Conference Committee of which we are not holding.
    These hearings are out of regular order. These hearings 
would not necessarily have to be held. They've never been held. 
Hearings are usually held before bills are passed. And so we 
start today on a premise that is incorrect. There is no such 
thing as a Reid-Kennedy bill. There is a Senate bill that has 
the support of individuals like Senator Hagel, individuals like 
Senator John McCain, Senator Specter. It is a bipartisan bill.
    But there are elements of the House bill that are worthy of 
reconciling with the Senate bill. Let's get to work.
    The House immigration reform bill, the Border Immigration 
Enforcement, H.R. 4437, was passed on December 16th, 2005. The 
Senate immigration reform bill, the Comprehensive Immigration 
Reform Act of 2006 was passed on May 25th. And as I've just 
said, now is time for a conference.
    H.R. 4437, however, was introduced on a Tuesday--that's the 
House bill--and without a single hearing before the full 
Judiciary Committee, it was marked up, moved to the floor and 
passed the following Friday. This was done without hearings and 
without any input from the minority party endorsing the bill.
    Even though Republicans hold the White House and the 
majority in both the House of Representatives and the Senate, 
they refuse to go to conference and develop a real immigration 
reform package that would be meaningful and bring about long-
term results. Instead, they are stalling. They stalled before 
Congress broke for the August district work period and they're 
continuing to stall. Republican-controlled Congress is simply 
doing nothing, nothing about the 12 million people in this 
country using false identifiers, nothing to better secure the 
border, nothing to protect the jobs of American workers by 
implementing a real employee identification system, nothing to 
help our Border Patrol agents, nothing to change the fact that 
our immigration system is inadequate and broken. Simply 
nothing.
    And when I went to the San Diego hearing----
    Chairman Sensenbrenner. The gentlewoman will suspend.
    The Chair recognizes that all those who have joined us in 
the audience today and welcomes that. This is a very emotional 
issue. There are strongly held views on both sides of the 
issue.
    People who are witnesses and Members of the Committee are 
going to say something that many of you in the audience agree 
with strongly and many of you disagree with strongly. The next 
witness or the next Member will probably do the opposite.
    Now, in order to conduct this hearing properly and in 
accordance with House rules, which will specifically prohibit 
demonstrations of any kind in the audience, either in support 
or in opposition to the rules. It's the Chair's duty to 
maintain order at these hearings and to ask all of you to be 
respectful of the statements that are made, those of which you 
agree with and those of which you disagree with.
    I would point out that Rule XI(2)(k)(4) of the House of 
Representatives provides, ``that the Chairman may punish 
breaches of order and decorum by censor and exclusion from the 
hearings, and the Committee may cite the offender to the House 
for contempt of Congress.''
    The Chair will use this authority. It hopes he will not 
have to. And I would ask everybody in the audience to be 
respectful of statements that are made, whether you disagree 
with the statements or agree with them.
    The gentlewoman from Texas has a minute and 10 seconds left 
and may proceed.
    Ms. Jackson Lee. And I beg to indulge these individual 
citizens, Mr. Chairman, but I thank you for your words.
    Let me finish by simply saying, in San Diego, I held up the 
bars of Sailor Perez that was given to me on my journey to 
Iraq, in the theater protecting those who live in the United 
States. Sailor Perez has an immigrant background.
    The audience in San Diego--anti-immigrant audience on, 
unfortunately, one of our military bases, booed, and I was 
cited as demagoguing by some of the alleged staff of this 
majority.
    Let me make it very clear, when I hold up the bars of an 
individual who is on the front lines who is an immigrant, I 
hold them up in great respect. And I ask the question, why are 
we demagoguing reform of the immigration system? Why don't we 
go to conference? Let's do something.
    Let's have comprehensive immigration reform, border 
security and a pathway to citizenship, decency on behalf of 
this sailor and many others, who are on the front lines, whose 
immigrant background says they love America.
    I yield back my time, Mr. Chairman.
    Chairman Sensenbrenner. The time of the gentlewoman has 
expired. Now, the Chair doesn't want to have to repeat what he 
just said about what the rules of the House require. I would 
ask the audience to be respectful of the rules of the House, 
whether you agree with what is said or disagree with what is 
said.
    Now, we have 5 witnesses today. Three were selected by the 
Republicans, and two were selected by the Democrats.
    The first witness will be Sheriff Leo Samaniego, who has 
served as the Sheriff of El Paso County since he was first 
elected in 1984. Prior to his election as Sheriff, Leo 
Samaniego served in the El Paso Police Department for 28 years. 
He is a 1972 graduate of the FBI National Academy. He serves as 
a member of the Texas Crime Prevention Association, American 
Legion Post 74, and as chairman of the El Paso Area Community 
Justice Council. He has been the recipient of numerous awards, 
including the League of Women Voters Bravo Award, and the City 
of El Paso Conquistador Award.
    Dr. Alison Siskin is a senior analyst at the Congressional 
Research Service where she specializes in immigration 
legislation. Her immigration expertise covers legislation 
dealing with alien detention and removal, criminal aliens, 
interior investigations, international adoptions, non-citizen 
eligibility for public benefits and the Visa Waiver Program. 
Dr. Siskin received her bachelor's degree in applied 
mathematics from Brown University and a Ph.D. In sociology from 
Stanford University.
    Andrew Ramirez serves as the chairman of the Friends of the 
Border Patrol, a non-profit organization that was created to 
support the U.S. Border Patrol and their agents while improving 
the quality of life for border residents. Founded in August 
2004, the FBP works with and supports law enforcement officials 
across the United States. It continues to investigate Border 
Patrol sectors along the border and in Puerto Rico.
    Chief Richard Wiles has served in the El Paso Police 
Department since 1982 and was appointed Chief of Police in 
2004. Prior to joining the police force, Chief Wiles also 
served in the El Paso Fire Department. He is a graduate of the 
University of Texas at El Paso. And among other post-graduate 
degrees and certifications, he's a graduate of the FBI's 
National Academy.
    Kathleen Walker is currently the president-elect of the 
American Immigration Lawyers Association. She serves as 
chairperson of the Immigration and Nationality Law Board 
Certification Exam Committee for the State Bar of Texas as well 
as on the advisory committee. She has served on the standing 
committee of the State Bar of Texas on immigration and 
nationality law and has served on the Board of Governors of 
AILA for several terms. She is currently the chairperson of the 
Immigration Department of the El Paso, Texas-based law firm 
Kemp Smith.
    Would all of you please stand and raise your right hand and 
take the oath.
    [Witnesses sworn.]
    Chairman Sensenbrenner. Let the record show that all of the 
witnesses answered in the affirmative.
    Before I recognize the witnesses for opening remarks, I 
would like to remind the Members and witnesses that this 
hearing is being conducted consistent with all applicable House 
and Committee Rules of Procedure. Therefore, I ask the 
witnesses to limit their remarks of oral testimony to 5 minutes 
and will recognize Members for 5 minutes of questioning, 
alternating between minority and majority Members seeking 
recognition.
    So Sheriff Samaniego, you're first up.

      TESTIMONY OF LEO SAMANIEGO, SHERIFF, EL PASO COUNTY

    Mr. Samaniego. Thank you, sir.
    Mr. Chairman, Members of the Committee, welcome to El Paso.
    As law enforcement officers on the border with Mexico, our 
primary concern is the welfare and safety of our citizens and 
our nation. The terrorism threat to our country is very real. 
It is unfortunate that most Americans have already forgotten 
the fear, the terror and the anger that we experienced on 9/11.
    The majority of illegal aliens that come across our border 
are individuals looking for a better life. Unfortunately, there 
are a large number of criminals also entering among them. 
Border control must be a priority.
    Defective border security and illegal immigration, which is 
the responsibility of the Federal Government, does not lessen 
the burden being placed on border law enforcement agencies that 
are already overburdened, understaffed and underfunded. Law 
enforcement and criminal justice expenses associated with 
illegal immigration exceed $89 million annually for border 
counties.
    El Paso is one of the leading gateway cities for the 
transshipment of narcotics, as well as a staging area for 
illegal aliens. There are at least five powerful drug 
trafficking organizations operating in and through the Juarez/
El Paso corridor. Hundreds of smaller groups assist the major 
organizations in their smuggling, stashing, transporting, 
distribution and money laundering efforts. Mexican drug cartels 
are quietly taking over Columbia's drug trafficking rings and 
are becoming the world's largest criminal enterprises.
    Mexico does a lot of counter-drug operations and several 
major traffickers have been arrested, but you do not hear of 
any seizures or major arrests along the U.S./Mexico border. I 
have long suspected that drug traffickers and alien smugglers 
are in control of the border, and not the Mexican Army or law 
enforcement agencies. The economic conditions in Mexico and the 
long history of corruption of law enforcement agencies at all 
levels of government make it easy for drug cartels to operate. 
Our government should do whatever needs to be done to take 
control of our border.
    Senate bill 2611 requires that Federal, State and locals 
meet with their Mexican counterparts before building either a 
fence or installing barriers. Mexico strongly opposes the 
erection of any fence on any part of the border. This is 
tantamount to a homeowner asking a burglar if he approves of 
the homeowner installing bars on his windows. It is not in the 
best interest of the Mexican government for the United States 
to improve security on the border.
    Section 607 of the House Resolution 4437 provides $100 
million for border county sheriffs from Texas to California to 
hire, train and equip additional deputies. It also implements 
Operation Linebacker, proposed by the Texas Border Sheriffs 
Coalition, to form a second line of defense and protect our 
border.
    One step away from the Federal line is our jurisdiction. 
When drug loads and illegal immigrants get past the Border 
Patrol, when a crime is committed against a resident or an 
illegal alien, we, the sheriffs, have to deal with the 
consequences. We urge approval of section 607.
    The Senate bill authorizes only $50 million for any agency 
within 100 miles of either the Canadian or Mexican border. In 
my opinion, the money would be so diluted because of the large 
number of agencies involved, that it could turn out to be a 
waste of money.
    In January of 2006, Governor Rick Perry decided to provide 
funding to the 16 Texas border sheriffs to implement Operation 
Linebacker. The result of Operation Linebacker has been 
outstanding in regards to crime deterrence, drug seizures, 
arrests made and citizen satisfaction.
    El Paso County Sheriff's office has been criticized and 
accused of enforcing immigration law by several misguided and 
misinformed groups.
    House Resolution 4437 clarifies that States have the 
inherent authority to enforce all immigration laws. The Senate 
bill is similar, but also states that States have inherent 
authority to enforce only the criminal provisions of 
immigration law. The assistance of State and local law 
enforcement agencies can mean the difference between success 
and failure in enforcing immigration laws. The more than 
650,000 officers nationwide represent a massive force 
multiplier. House Resolution 4437 would give us all the 
authority we need to enforce immigration law.
    I wasn't elected to fail in my responsibility to uphold the 
law. The Federal Government has failed to provide a response to 
the threats along the border.
    The law-abiding, tax-paying, rural residents in my county 
demand equal protection from those who have no regard for human 
life or human dignity. They insist on an immediate response to 
escalating threats by drug and human traffickers. They pay 
taxes to live free of intimidation.
    I will not fail them. The question is, will you continue to 
fail them?
    Thank you, sir.
    Chairman Sensenbrenner. I thank you, Sheriff.
    [The prepared statement Mr. Samniego follows:]

              Prepared Statement of Sheriff Leo Samaniego

                              INTRODUCTION

    Chairman Sensenbrenner, Chairman Hostettler, members of the 
Committee on the Judiciary, welcome to El Paso and thank you for 
allowing me to present my testimony this morning on border problems. As 
the Chairman of the Texas Border Sheriff's Coalition, thank you for all 
you have done on our behalf.
    As Law Enforcement officers on the border with Mexico, our primary 
concern is the welfare and safety of our citizens and our nation. We, 
the Border Sheriff's Coalition, have done everything possible to bring 
awareness to the leaders of our state and our nation. The terrorism 
threat to our country is very real, it is unfortunate that most 
Americans have already forgotten the fear, terror and anger we 
experienced on September 11, 2001. God forbid that we experience 
another day like that, but if we do, I do not want anyone pointing a 
finger at me and telling me I did not do my job. The truth is that the 
Southern border is the weak link in our national security.

                               TERRORISM

    Intelligence indicates that terrorist organizations are 
increasingly probing the U.S./Mexico border. The reports suggest that 
terrorists are aware of the porous nature of the Southwest border. The 
proximity to the border provides a fertile environment for terrorist/
extremist networks to smuggle humans, deadly weapons, and other 
resources into the United States. The large international border 
creates tremendous smuggling opportunities for terrorists and is 
fertile ground for recruitment and development of. support networks for 
terrorist organizations. The Mexican drug trafficking and human 
smuggling organizations use their knowledge of the border to assist 
terrorist cell members in their attempts to exploit the United States
    The multi-cultural aspect of the border area also appeals to the 
terrorists. There are many nationalities, many of them transients, who 
live and interact in the border setting. This provides the terrorists 
the opportunity to blend into the community. There is also a 
substantial amount of established Middle Eastern businesses and 
although, the majority of these businesses are legitimate, some of them 
generate a large amount of money that needs to be monitored so that it 
does not become a terrorist resource. The southwest border may not be a 
priority target for a terrorist attack, but it is prime territory for 
the cultivation, recruitment, transportation, and stashing of terrorist 
cell members.
    Example: In January 2006, the FBI arrested in Houston, Texas South 
Korean fugitive Tongsun Park who is accused of helping the regime of 
Saddam Hussein in the Oil for Food Program. It is alleged by the 
Mexican press that Park was in Mexico prior to his arrest. Again, this 
shows a link between terrorism, Mexico, and the U. S.

                          ILLEGAL IMMIGRATION

    The majority of illegal aliens sneaking across our border are 
honest, hard working individuals looking for a better life and an 
opportunity to better their economic situation. I certainly do not 
blame them, Mexico has done nothing in order to improve their lot, but 
there are a great number of criminals, gang members and yes, potential 
terrorist, also entering among them. The Border Patrol and local law 
enforcement officers have a tremendous responsibility to make sure that 
these individuals are deterred or apprehended before they can do harm 
to our country. The well organized flow of illegal immigrants coming 
across our border must be stopped. Border control must be a priority. 
What do we do with the eleven or more millions already here can wait 
until a logical & reasonable solution can be formulated. Amnesty only 
fuels the desire of millions more to come in illegally and hope that 
this practice will be repeated.
    The fact that border security and illegal immigration is the 
responsibility of the federal government does not lessen the burden 
being placed on border law enforcement agencies that are already 
overburdened, understaffed and most certainly under funded. A 2000 Law 
Enforcement Management & Statistics Survey, indicates that the number 
of full time officers per 100,000 residents for agencies in border 
counties is 62% of the national average (157 officers per 100,000 
residents versus 251 officers per 100,000 residents).Texas spends the 
least per agency in border counties, averaging less than 90% of what 
the non-border agencies in the state receive. One good thing came out 
of the survey; the border counties total arrest rates are 16% higher 
than the national rate per 100,000 residents.

                                  COST

    Border communities continue to incur significant costs due to the 
lack of adequate border security. A 2001 study by the United States/
Mexico border counties Coalition found that law enforcement and 
criminal justice expenses associated with illegal immigration exceed 89 
million dollars annually for the southwest border counties.
    While the federal government provides states and localities 
assistance in covering costs related to detention of certain criminal 
aliens and the prosecution of federal drug cases, local law enforcement 
along the border are provided no assistance in covering such expenses 
and must use their limited resources to combat drug trafficking, 
private property, trespassing, and other border related crimes.

                           NARCOTICS OVERVIEW

    El Paso, unfortunately, is one of the leading gateway cities for 
the transshipment of narcotics as well as a staging area for illegal 
aliens. There are at least five powerful drug trafficking organizations 
(DTO's) operating in and through the Juarez/El Paso corridor. Hundreds 
of smaller groups assist the major organizations in their smuggling, 
stashing, transporting, distribution and money laundering efforts. 
According to The El Paso Intelligence Center, 65% of all narcotics sold 
in the U.S. market enter the country through the Southwest border. 
Violence associated with Drug Trafficking Organizations continues 
escalating as they attempt to gain or maintain control of their areas 
of operation throughout the border. For example, Marcos Arturo Nazar 
Contreras was appointed the Interim Regional Coordinator of the 
Chihuahua State Investigations agency on May 25. On Sunday, August 8, 
2006, he was killed when his vehicle was ambushed by gunmen in the City 
of Juarez, across the border from El Paso. An autopsy found thirty 
seven (37) gunshot wounds. His agency had recently been overhauled 
because of allegations that the leadership was linked to drug 
traffickers. This was much more than an execution, it sends strong 
message not to mess with the cartel.
    Efforts to secure our border against terrorism have not curbed the 
use of the Southwest border as the most significant gateway of drugs 
being smuggled into the United States. The enforcement efforts in other 
major cities are being increased because we are not stopping the drugs 
here. If illicit organizations can bring in tons of narcotics through 
this region and work a distribution network that spans the entire 
country, then they can bring in the resources for terrorism as well. If 
illegal aliens can be smuggled through here in truck loads, than 
terrorist organizations can also covertly smuggle the people to carry 
out their plans. On the Southwest border, the same organizations 
involved in smuggling drugs have also been found to smuggle illegal 
aliens.
    According to a Miami Herald story dated 3-15-97, Mexican Drug 
Cartels are quietly taking over Colombia's Drug trafficking rings and 
are becoming the world's largest criminal enterprises. Colombian 
Intelligence documents obtained by the Herald and interviews with top 
U.S. Law Enforcement officials, Mexico's cartels have begun financing 
Columbian drug shipments, taking over smuggling routes and managing 
cocaine distribution rings in major U.S. cities.
    I know that Mexico does a lot of counter drug operations and 
several major drug traffickers have been arrested throughout the 
country but you do not hear of any seizures or major arrests along the 
U.S. / Mexico border. I have long suspected that drug traffickers and 
alien smugglers are in control of the border and not the Mexican army 
or law enforcement agencies. While researching the matter, I found out 
that in March of 1997 during Senator Joe Biden's Committee hearing on 
NAFTA, carried live on C-span, Mr. Christopher Whalen, a Washington 
based financial expert on Mexico, testified that:

        1)  Over a 100 billion worth of illegal drugs cross the U.S. / 
        Mexico border every year

        2)  Mexico cut a deal with the drug cartels. In return for 
        depositing Cartel monies in cash strapped Mexican banks, 
        cartels were given free use of Mexican states along the Mex/
        Texas border.

        3)  Mexico nets $15 billion a year from this drug trafficking 
        arrangement.

    The economic conditions in Mexico and the long history of 
corruption of law enforcement agencies, at all levels of government, 
make it easy for the drug cartels to operate.

                            BORDER SECURITY

    I am of the humble opinion that the U.S. Government should be able 
and willing to build fences and install barriers anywhere on our side 
of the border, as approved by the House on December 16, 2005 when it 
passed H.R. 4437, in order to curtail drug & human smuggling and 
potential terrorist incursions. I believe that our government should do 
whatever needs to be done in order to take control of our border. The 
Senate bill (S 2611) requires that federal, state and locals meet with 
their Mexican counterparts before building either a fence or installing 
barriers. Do they have to agree? I can tell you that Mexico vehemently 
opposes the erection of any fence on any part of the border. This is 
tantamount to a home owner asking a burglar if he approves of the home 
owner installing bars on his windows. Our border must be secured if we 
are to truly have national security. It is not in the best interest of 
the Mexican government for the United States to improve security on the 
border. Mexico has not respected the boundary between our country and 
theirs, why should they be given a say so on what we need to do to 
protect ourselves?
    On Thursday, November 17, 2005, Representative John Culberson (R-
TX) and Representative Silvestre Reyes (D-TX) introduced H.R. 4360. The 
Border Law Enforcement Act, which will provide authority and direct 
funding for Border County Sheriffs to support Border Patrol agents in 
securing our Southern border. The bill implements ``Operation 
Linebacker'' proposed by the Texas Border Sheriff's Coalition to form a 
second line of defense to protect our border from Texas to California.
    On December 7, 2005, House Judiciary Committee Chairman James 
Sensenbrenner (R-WI) introduced H.R. 4437, The Border Protection, 
Antiterrorism, and Illegal Immigration Control Act of 2005. H.R. 4360, 
the Border Law Enforcement Act, became Section 607. H.R. 4437 was 
approved by the house on December 16, 2005.
    Section 607 of H.R. 4437 will provide $100 million for Border 
County Sheriffs from Texas, New Mexico, Arizona and California to be 
able to hire, train and equip additional deputies and build additional 
detention space to house illegal aliens pending deportation. Deputies 
will not be Border Patrol or Immigration Agents but will be assigned to 
patrol in the vicinity of the border in order to deter Drug 
trafficking, human smuggling, gang related crimes and other illegal 
activity related to the border. The members of the Texas Border 
Sheriffs Coalition have a stake in the security of our border;

        1)  One step away from the federal line is our jurisdiction.

        2)  When a drug trafficker manages to evade the Border Patrol 
        and gets his load across it is our problem.

        3)  When a Coyote gets his group of undocumented immigrants 
        into our communities and abandons them it is our problem.

        4)  When a crime is committed against a law abiding resident or 
        against an undocumented immigrant, we the Sheriffs have to deal 
        with the consequences.

    We urge the Senate to approve Section 607 of H.R. 4437. We have the 
ability and desire to protect our country, give us the means to do it 
with!
    Senate bill (S-2611) authorizes $50 million for any agency within 
100 miles of either the northern (5000 miles) or southern borders (2000 
miles) with preference given to counties and cities with populations 
below 50,000. There are virtually hundreds of counties & municipalities 
that would be eligible to apply for funding and in my opinion, none of 
them would really get what they needed to make a difference. In other 
words, the funding would be so diluted that in the long run this would 
be a waste of money. Congressman John Culberson has made it clear that 
the majority of drugs and illegal aliens are coming through the 
Southwest border and not the Canadian border.
    In January of 2006, Governor Rick Perry, after evaluating the plan, 
decided that he was going to provide funding to the 16 Texas Border 
Sheriffs to implement Operation Linebacker pending the final outcome of 
H.R.4437 and the Senate bill (S-2611). The results of Operation 
Linebacker have been outstanding in regards to crime deterrence, drug 
seizures, stolen property recovered, arrests made and, most important, 
citizen satisfaction and peace of mind. . Consider the fact that 
Operation Del Rio a three week long law enforcement blitz (month of 
June 2006) saturated a five border county zone with local, state and 
federal law enforcement personnel and equipment. This initiative 
resulted in a decrease in 76% in Part One Crime (Homicides, forcible 
rapes, robberies, assaults, burglaries, larcenies, thefts, motor 
vehicle thefts) in those border communities.
    My dear friend Val Verde County Sheriff A. D'Wayne Jernigan whose 
agency participated in this program reports ``. . .the amount of the 
thefts last year (in June 2005) was $91,184.00. This year, it was only 
$1,299.00. It has definitely had impact.''
    We live and work under unique circumstances along the border. I'm 
glad to finally see our U.S. Attorney general recognize this. In an 
Associated Press article written by Tim Kote and published in the El 
Paso Times on Wednesday, August 2, 2006. United States Attorney General 
Alberto Gonzales announced the addition of federal prosecutors to 
handle immigration-related offenses and drug trafficking in states 
along the border with Mexico. Gonzales is quoted as saying ``There is 
some correlation.'' ``Obviously smuggling occurs in connection with 
illegal immigration. Also there is a serious drug trafficking problem 
on our southern border.''
    With that in mind, the El Paso County Sheriff's Office has been 
critized and accused of enforcing immigration law by several Human 
Rights groups. We are aware that we can only stop someone based on 
reasonable suspicion and make an arrest based on probable cause. Under 
the provision of H.R. 4437, subsection 240 D was added to the 
Immigration & Nationality Act (INA) to clarify that states have the 
inherent authority to enforce immigration law. The Senate bill (S-2611) 
is very similar to H.R. 4437, but would add a new sub-section 240 D to 
the INA to clarify that states have the inherent authority to enforce 
only the criminal provisions of immigration laws. Law Enforcement 
officers need to know exactly what they can and what they can not do in 
regards to immigration law.
    The assistance of state and local law enforcement agencies can mean 
the difference between success and failure in enforcing the immigration 
laws. The more than 650,000 officers nationwide represent a massive 
force multiplier. H.R. 4437 would give us all the authority we need to 
enforce immigration law.

                               CONCLUSION

    During the 9/11 Commission hearings, former National Coordinator 
for Counterterrorism Richard Clarke stated, ``To them who are here in 
the room, to those who are watching on television, your government 
failed you, those entrusted with protecting you failed you, and I 
failed you. We tried hard, but that doesn't matter because we failed.'' 
These statements were made publicly. It focused attention to the 
shortfalls of the government and extended the responsibility for 
homeland security to every public service agency in the country.
    I was elected Sheriff of this great community. I wasn't elected to 
fail in my responsibility to uphold the law. I have been put in a 
difficult position in regards to border security. The federal 
government has failed to provide a measured response to the threat 
along the border. The silent majority, the law abiding tax paying rural 
residents in my county demand equal law enforcement protection from 
those who have no regard for human life or human dignity. They insist 
on an immediate response to the escalating threats by terrorist cells 
and drug and human trafficking organizations. They pay taxes to live 
free of intimidation. I will not fail them . . . the question is will 
you continue to fail them?
    Chairman Sensebrenner, members of the Committee on the Judiciary, 
thank you very much for giving me the opportunity to testify before 
this Honorable Body.
    May our Lord bless you and give you wisdom.

    Chairman Sensenbrenner. Ms. Walker.

    TESTIMONY OF KATHLEEN WALKER, PRESIDENT-ELECT, AMERICAN 
                IMMIGRATION LAWYERS ASSOCIATION

    Ms. Walker. Chairman Sensenbrenner, Ranking Member Sheila 
Jackson Lee and the rest of the distinguished Members of the 
Committee and our audience, thank you for the opportunity to 
provide this testimony this morning.
    We have already had my bio. Let me go ahead and go into 
some of the comments I hope to make today.
    First of all, as to the hearing title, I'm perplexed 
because there is no veto power provided in section 117 of 
Senate bill 2611. In fact, what it merely provides is what we 
commonly do here on the border, and that is consult with our 
neighbors across the way.
    In fact, that consultation has led to all sorts of positive 
results. I want to at least read into this particular record 
what section 117 specifically provides, that is, ``to solicit 
the views of affected communities, lessen tensions, foster 
greater understanding and stronger cooperation on this and 
other important security issues of mutual concern.''
    The history in El Paso is one of consultation; the U.S./
Mexico Border Health Commission regarding health issues that we 
share, the International Boundary and Water Commission 
regarding environmental issues. We have several firsts in the 
State of Texas based on cooperation with our Federal agencies 
here dealing with security: The first dedicated commuter lane 
in the State of Texas, the first fast and secure trade lane in 
the State of Texas. That is due to our cooperation and work 
with our neighbors across the Rio Grande, as recently as our 
floods in the past few weeks.
    To sit here and tell me that it is somehow a problem to 
consult, to me, the question is, how can one effectively 
achieve any objective without proper consultation with your 
neighbors across the way? I would no sooner build a fence than 
consult with my neighbor. I'm sure all of us would do so.
    Another comment here concerning what we are talking about 
as to local law enforcement and what H.R. 4437 really provides. 
I certainly respect Sheriff Samaniego and am certainly grateful 
for all of his hard work, but section 607 of the 4437 bill 
talks about sheriffs dealing with people who are not lawfully 
present in the U.S. As an immigration lawyer, lawful presence 
right now is tied to a number of different issues. I can fail 
to file an AR-11, change of address card, I can fail to have 
the appropriate number of hours as a student, all of that can 
be a status violation under immigration law. There's a whole 
series of memos trying to interpret what ``unlawful presence'' 
means.
    This is not a simplistic analysis. Immigration law is 
complex. And to sit here and say that it is simplistic to see 
some sort of demarcated brand of U, undocumented, on someone's 
forehead is fallacious.
    Our National Crime Information Center database tried to 
throw in information regarding overstays, and then having some 
local law enforcement agent try to figure out whether or not 
someone's lawfully here leads to racial profiling, it leads to 
erroneous arrests of U.S. citizens. We are not at any point 
right now, concerning the use of NCIC, to be able to figure out 
whether or not someone's lawfully here.
    I've been practicing immigration law for 21 years. I'm 
still learning. It's still ever changing.
    The bottom line regarding this hearing today is asking you 
to go back to the hill, asking you to come up with a real 
solution to the issue here. That solution involves two parts, 
two sides of a coin. We have enforcement. We've dealt with it 
for the past 10 years concerning Border Patrol, and increase in 
enforcement has not resulted in a decrease in illegal 
migration.
    Let's go ahead and resolve this, as I know that people on 
the Hill are capable of doing. We resolve it by addressing 
employer needs. There's a recent quote last week, Texas 
Producers Association, basically said--a comparison to Rome 
burning, ``The produce is going to burn in Texas while Congress 
fails to take action on effective immigration reform to address 
our employment needs.'' We are only asking for something 
rational, something logical, something that indeed gives us 
true security on this border.
    Our history here is one of cooperation, of effectiveness, 
of real results. We have been able to achieve that by taking 
the hard issues head on.
    I'm very concerned that we are looking at a security-light 
approach with H.R. 4437. The hard one is to go ahead and figure 
out how we deal with the undocumented in the United States, the 
undocumented that, indeed, if we want to look at Social 
Security Suspense Fund, have put billions of dollars that are 
basically supporting those of us who are retiring in the United 
States.
    There is some logic here. And the logic here is to go ahead 
and take effective action and combine immigration reform with 
enforcement. And then I hope that you will hold all of us 
accountable for achieving that. We certainly expect that here 
in El Paso, and we have been able to achieve many positive 
results by doing effective action together.
    Thank you for the time.
    Chairman Sensenbrenner. Thank you.
    [The prepared statement of Ms. Walker follows:]

             Prepared Statement of Kathleen Campbell Walker

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              ATTACHMENTS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Sensenbrenner. Chief Wiles.

  TESTIMONY OF RICHARD WILES, CHIEF OF POLICE, EL PASO POLICE 
                           DEPARTMENT

    Mr. Wiles. Honorable Chairman and Members, thank you for 
the opportunity to be here with you today. Welcome to El Paso. 
I hope, while you've been here, you've had the opportunity to 
enjoy our great city, even though it's been raining a little 
bit.
    El Paso is immersed in tradition and culture, but its 
uniqueness comes from being the largest city in the United 
States on an international border.
    But we are connected in many ways. Each day, tens of 
thousands of vehicles and pedestrians move across one of three 
international bridges between the two cities. Much of this 
traffic is attributed to NAFTA, shoppers, students, workers, et 
cetera, traveling between the two countries. It is estimated 
that the economy of El Paso is favorably impacted by tens of 
millions of dollars each year because of Mexican shoppers. 
There is no getting around it, our cities are economically tied 
to each other in many ways.
    But much more important than economics is the issue of 
families. The Rio Grande divides much more than our two 
countries, it divides families. Much of the traffic on our 
bridges is simply everyday people doing all they can to 
maintain their family relationships. It goes without saying 
that many United States citizens living in El Paso are 
originally from Mexico or descendents from individuals who have 
migrated from Mexico.
    According to the 2000 U.S. census, over 78 percent of the 
population of El Paso is made up of Hispanics or Latinos. 73 
percent speak a language other than English at home. And 27 
percent of the residents in El Paso are foreign-born. That 
makes us very unique.
    And it makes the situation very difficult when the Federal 
Government is talking about immigration and immigration reform 
and trying to tie it in to problems that other cities are 
having around our nation. We are no strangers to illegal 
immigration issues.
    It's been said, and I agree wholeheartedly, that most 
illegal immigrants are coming into the United States to seek a 
better life for themselves and their families. And we do know 
that we have some that come here for criminal intent. There are 
drug smugglers. There are human trafficking that occurs. There 
are criminals that take advantage of the illegal immigrants and 
commit crimes against them. And those are issues that we have 
to deal with.
    The Federal Government is clearly facing a major challenge 
when dealing with issues of immigration and immigration reform. 
There must be a constant balance of ensuring that while the 
flow of illegal immigration is curtailed, those engaged in 
lawful migration for purposes of trade and our personal matters 
are unimpeded.
    There's two issues that I want to comment about today, and 
the first one is the issue of what we've discussed about, are 
illegal immigrants coming over here to commit crimes. I just 
want to point out that El Paso, as I've mentioned, has many 
immigrants, both illegal and legal. And El Paso has been named 
the second safest city in the United States with a population 
of over 500,000. We've had that position for two or 3 years 
now. And prior to that, we were the third safest city. This is 
a research--an independent research conducted by Morgan Quitno 
Press. It includes all the major cities--all the cities in the 
United States and then separates the major cities over 500,000.
    If it were true that the majority of illegal immigrants 
were coming over here to commit crimes, why is El Paso so safe? 
You would think here, more than anywhere, we would have 
significant crime problems within our city limits, and we do 
not have those problems.
    The other issue is in regards to, should local law 
enforcement be enforcing immigration law? As the Chief of 
Police of the City of El Paso, I am a member of the Major City 
Chiefs, which is a leader in the law enforcement field and 
represents the local law enforcement community. It is comprised 
of 57 law enforcement executives of the largest police 
organizations in the United States and Canada.
    In June of 2006, the Major City Chiefs adopted a position 
specific to the issue of enforcement of immigration laws by 
local police agencies. Because of all the issues that's 
involved in a city such as El Paso, I was asked to serve on a 
committee with eight other high-ranking police executives, 
including the Sheriff of Los Angeles County, the Chief of 
Police from Los Angeles Police Department, Detroit, New York, 
Seattle, Tucson and Miami-Dade. This committee ultimately 
submitted a proposal that was adopted by the Major City Chiefs 
as the official stance of the entire organization. And I have 
submitted that proposal for your review.
    The issues are numerous, but the main issues I want to 
point out is lack of resources. We are struggling to retain and 
recruit officers just to do the daily police and quality-of-
life issues that our community expects of us. To expect us to 
take on another issue, such as immigration, and to find the 
time to be able to do that, we just don't--we just don't have 
that time. We don't have the resources.
    Secondly, immigration law is very complex. They involve 
both civil and criminal statutes. The Federal Government and 
its designated agencies under the Department of Justice and 
Department of Homeland Security have clear authority and 
responsibility to regulate and enforce immigration laws.
    The most important one, though, that I would like to point 
out is, what makes El Paso safe is community policing and the 
trust and partnerships that we've built with the members of our 
community. We have a significant immigrant community. In 
addressing crime and disorder at the macro level, we cannot 
simply police around undocumented immigrants. We need the trust 
and cooperation of victims and witnesses, whether they are 
documented or not.
    I would like to just close in saying that the communities 
across our nations are diverse, and many are dealing with a 
vast amount of social problems and ills, some caused by illegal 
immigration and some not. Since this issue is one that squarely 
falls within the realm of jurisdiction of the Federal 
Government, it's not even proper to ask communities to consider 
this issue as a cause of dissension and friction in communities 
that have other pressing problems to deal with. The United 
States government needs to address this issue at the Federal 
level.
    Understanding that while State and local agencies should 
not be burdened with the enforcement of immigration laws, we 
stand ready to assist in areas involving criminal activity.
    Thank you.
    Chairman Sensenbrenner. Thank you, Chief.
    [The prepared statement of Mr. Wiles follows:]

                 Prepared Statement of Richard D. Wiles

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Sensenbrenner. Dr. Siskin.

   TESTIMONY OF ALISON SISKIN, SENIOR ANALYST, CONGRESSIONAL 
                        RESEARCH SERVICE

    Ms. Siskin. Thank you, Chairman Sensenbrenner, Ranking 
Member Jackson Lee and distinguished Members of the Committee 
for the invitation to appear before you today.
    My testimony will focus on the financial impact of illegal 
immigration on border communities and several of the 
immigration enforcement related provisions in H.R. 4437, the 
Border Protection, Anti-Terrorism & Illegal Immigration Control 
Act of 2005, as passed by the House of Representatives on 
December 16th, and S. 2611, the Comprehensive Immigration 
Reform Act of 2006, as passed by the Senate on May 25th.
    As the Committee is well aware, it is very difficult to 
enumerate a population which is trying to avoid detection by 
the government. A major issue with cost estimates in the 
unauthorized population is the lack of reliable data on the 
number and distribution of unauthorized aliens. As a result, 
attempts to quantify the cost and benefits of unauthorized 
population are hindered by the simple fact that there is not 
agreement on the number of unauthorized aliens residing in the 
United States. Nonetheless, there have been studies using 
different methodologies which have attempted to qualify the 
cost of unauthorized migration.
    I would like to submit for the record a CRS memorandum 
discussing the findings of several of these studies.
    [The information referred to follows in the Appendix]
    Chairman Sensenbrenner. Without objection.
    Ms. Siskin. And I would like to discuss a 2001 study by the 
U.S.--United States Border Counties Coalition on the cost of 
law enforcement, criminal justice and emergency medical 
services provided to border communities--provided by border 
communities to unauthorized aliens. The study found that in 
fiscal year 1999, border communities spent approximately $108 
million providing these services to unauthorized aliens.
    Specifically, the study found that for law enforcement and 
criminal justice costs, the border communities of Texas spent 
$22 million, and of that amount 13 million was spent by the 
Texas sheriffs, including 5 million spent by the El Paso 
Sheriff's Department. However, the report did not address the 
amount of taxes paid by unauthorized aliens which may offset 
some of the reported costs.
    Both H.R. 4437 and S. 2611 have provisions aimed at 
addressing the cost of unauthorized aliens on State and local 
law enforcement. H.R. 4437 would create a grant program for 
States and their subdivisions to procure equipment, technology, 
facilities and other products that facilitate or are directly 
related to the investigation, apprehension, arrest, detention 
and transportation of immigration law violators.
    Another program created by the House bill would require the 
Attorney General to reimburse or provide an advance to county 
sheriffs within 25 miles of the southern border for costs 
associated with the transfer of unlawfully present aliens to 
Federal custody. Under the bill, aliens taken into custody by 
these sheriffs would be deemed Federal prisoners in Federal 
custody.
    The House bill would also reimburse property owners for the 
cost incurred repairing private infrastructure damaged by 
aliens attempting to illegally enter the country.
    S. 2611 would create a grant program to reimburse States 
and local governments for costs associated with processing 
illegal immigrants through the criminal justice system and 
create another grant program for eligible law enforcement 
agencies to address criminal activities that occurs near the 
border and the impact of the lack of security along the border.
    S. 2611 would also create a grant program for Indian tribes 
with lands adjacent to the border who have been adversely 
affected by unauthorized immigration. S. 2611 would also 
reimburse the southern border States and county prosecutors for 
prosecuting federally initiated and referred drug cases.
    Moreover, H.R. 4437 would permanently authorize the State 
Criminal Assistance Program, SCAP, but prohibit States or 
political subdivisions that have in effect a statute, policy or 
practice that prohibits law enforcement officers from assisting 
or cooperating with Federal immigration officials in the course 
of carrying out the officers' routine duties from receiving 
these funds. S. 2611 would simply extend SCAP through fiscal 
year 2012.
    In addition to the cost of unauthorized immigration borne 
by State and local governments, another issue is interaction 
between the Department of Homeland Security's Immigration and 
Customs Enforcement and local law enforcement and the ability 
and willingness of ICE to take unauthorized or removable aliens 
into custody when they are encountered by State or local law 
enforcement or at the conclusion of their criminal sentences.
    When local enforcement encounters an alien during their 
routine duties, they can contact ICE's Law Enforcement Support 
Center, LESC, to confirm whether the person is a removable or 
unauthorized alien. Whether ICE will take the alien into 
custody often depends on the workload of the special agents, 
the distance to the jail and available detention space. Both of 
those would mandate that additional information related to 
certain immigration violators be included in the National Crime 
Information Center system, NCIC, allowing for instant access by 
law enforcement to information on the immigration status of 
certain aliens. However, the bills differ in the information 
that would be required to be entered.
    State and local law enforcement officers also come into 
contact with criminal aliens in the course of their normal 
duties. Some are incarcerated in Federal, State or local 
facilities, while others are in communities around the country 
because they have already served their criminal sentences. The 
potential pool of removable criminal aliens is in the hundreds 
of thousands, but the exact amount is unknown.
    In the Institutional Removal Program, which is conducted in 
State and local prisons--incarcerated aliens convicted of 
crimes. As a result, the aliens are taken into custody at the 
end of their sentence and removed quickly. H.R. 4437 would 
mandate that the IRP be extended to all States, while S. 26 
[sic] Would direct DHS to continue to operate the IRP or other 
similar program.
    In addition, both bills would authorize State and local law 
enforcement to hold an illegal alien up to 14 days after the 
alien completes his State sentence to effectually transfer the 
alien to Federal custody for removal and would allow the State 
and local law enforcement to issue detainers that would allow 
aliens who serve prison sentences to be detained until ICE can 
take the aliens into custody.
    Once again, thank you for your invitation to be here. I am 
at your disposal for questions.
    Chairman Sensenbrenner. Thank you very much.
    [The prepared statement of Ms. Siskin follows:]

                  Prepared Statement of Alison Siskin

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Sensenbrenner. Mr. Ramirez.

 TESTIMONY OF ANDREW RAMIREZ, CHAIRMAN, FRIENDS OF THE BORDER 
                             PATROL

    Mr. Ramirez. Thank you, Chairman Sensenbrenner, Ranking 
Member Jackson Lee and Members of the Committee, for inviting 
me to testify.
    Should Mexico hold veto power over the U.S. border security 
decisions? That is one of the issues that I am prepared to 
discuss today.
    Other issues that I am prepared to discuss include:
    Civilian border observation projects; the virtual wall, 
including misinformation about boots on the ground; remote 
video surveillance cameras, ground sensors, tunnel detection 
and other technologies that can be used to secure our borders;
    Two, the ways in which the trade corridors for NAFTA and 
CAFTA have undermined border security, expanding the flow of 
illegal narcotics and illegal aliens into the United States 
while creating areas of lawlessness on our southern border that 
provides easy access for criminal gangs, and worse, for 
terrorist organizations.
    In an e-mail to my vice chairman, dated August 15, 2006, 
Fredo Arias-King, former advisor to Mexican President Vicente 
Fox, wrote: ``One thing that is readily noticeable is that the 
loudest pro-immigration advocates in Mexico were and are the 
loudest anti-American voices.''
    Figures in the Fox government, such as Jorge Castaneda and 
Adolfo Aguilar Zinser, are seen as geopolitical geniuses by 
the--and I quote him, helpless Pan party officials who suffer 
from some kind of learned helplessness.
    ``Castaneda and Zinser,'' says Arias-King, ``long advocated 
using the immigrants as objects, not subjects, to press 
Washington and consulate to do certain things or simply for 
revenge.''
    Castaneda even wrote at one point, that the Mexican 
government should repress the U.S. citizens living in Mexico 
legally.
    I would also like to talk about an incident that occurred 
right here in El Paso. It involves the greatest miscarriage of 
justice that I have ever witnessed and threatens the ability of 
the Border Patrol to do its job and protect our country. The 
two U.S. Border Patrol agents, Ignacio Ramos and Jose Compean, 
were to be here today, but, due to the terms of their bond 
agreement, are prevented from coming onto Federal land. 
However, their wives, Monica and Claudia, as well as their 
families, are with us today.
    These agents stopped a drug smuggler from bringing 743 
pounds of marijuana into this country. Administrative errors 
made during the course of that stop should have been handled 
under standard disciplinary procedures. But to quote Judge Ted 
Poe and other Members of Congress, an overzealous prosecutor 
highjacked those procedures.
    In a case that is covered with the fingerprints of 
misconduct, as stated by Members of Congress and many people 
throughout America, Agents Ramos and Compean were abandoned by 
the Border Patrol's own management. The result has been 
devastating to the morale of rank and file agents, as it has 
raised questions from local law enforcement officials about 
whether the Administration really wants to secure our borders 
or not. They are reiterating what Agent Ramos himself said, Do 
they want us to catch them or not?
    Chairman Sensenbrenner. Continue.
    Mr. Ramirez. That same question is foremost in the minds of 
11,000 agents of the Border Patrol, men and women who put their 
lives on the line for us every day. They all remember Theodore 
Newton and George Azrak, agents who were murdered by drug 
smugglers and are now memorialized in the highest decoration 
that an agent can receive, the Newton/Azrak medal.
    In a similar way, those in the Border Patrol who believe in 
the highest ideals of public service will never forget the 
names of Ramos and Compean, the first agents in the history of 
the Border Patrol to go to prison for simply doing their jobs. 
In fact, during the trial, the smuggler violated the terms of 
his immunity agreement when he should have been arrested at the 
point for not telling all information as he was directed within 
the agreement to do. He didn't and was spirited back to Mexico 
at the conclusion of the hearing that day.
    Mr. Chairman, I do have that agreement, if that could be 
introduced, as well.
    Chairman Sensenbrenner. Without objection.
    Mr. Ramirez. Mr. Chairman, I would like to take this 
opportunity to request a formal investigation into the Ramos/
Compean case by the Committee and a public hearing to determine 
the facts. Questions about the rulings of the judge, the 
conduct of the prosecutor and the jury and even the Border 
Patrol itself need to be answered. Thousands of Border Patrol 
are waiting for answers, not only about this case but also 
about the greater issues behind it. Until these issues are 
clarified, all of them risk going to prison.
    By making an example of Ramos and Compean, a clear message 
has been sent to the rest of the Border Patrol. It doesn't 
matter what the law says, if you violate such policies as 
nonpursuit, you will go to prison. Intimidation of the Border 
Patrol, as signaled by the prosecution of Ramos and Compean, 
coerces others in law enforcement to look the other way, and 
eventually the American people will be forced to accept the 
reality of a new transnational sovereignty, the North American 
communities.
    Indeed, Mexico has lost effective control of its northern 
territories. Mexican police have been compromised by bribery, 
neutralized by intimidation or eliminated by assassination. 
Others have joined with criminal elements in drug smuggling and 
human trafficking. The Mexican military has suffered the same 
effect with active duty units, including generals, operating in 
the service of the drug cartels and some here on American soil.
    The Department of Homeland Security has documented at least 
235 incursions into the U.S. Less known is the Military 
Incursion Card, which has been given to Border Patrol agents in 
the Tucson Border Patrol sector as early as 1997, and 
instructing them in how to react to incursions by military 
units, which I would also like to submit for the record, as 
well.
    Chairman Sensenbrenner. Without objection.
    Mr. Ramirez. The key problem is revealed in the shifting of 
responsibility for covering key smuggling zones along the 
Mexican border, including one here in El Paso. Responsibility 
has shifted from stations that have hundreds of agents to 
stations with only a few. Why would the Border Patrol act so 
blatantly to, if you look at it from one perspective, help the 
cartels unless the corruption that has riddled Mexico for so 
many years is finally working its way north.
    Once again, our organization feels that the chief of the 
Border Patrol needs to be questioned as to this redetailing and 
deployment of zones of responsibility.
    The answer to this problem goes back to the creation of the 
Department of Homeland Security and the reorganization from the 
Immigration and Naturalization Service, or Legacy INS as it is 
referred to in the agency, to the new Customs and Border 
Protection Agency at DHS. Too much power was given to the chief 
of the Border Patrol with no checks and balances, with the sole 
exception of Congress and the American people.
    Lack of security on our border causes security problems 
throughout our country. Every city in America is now a border 
town because these drug smugglers, the human traffickers and 
the violent gangs associated with them are not confined to the 
border regions.
    I'll just add this, Mr. Chairman--thank you.
    [The prepared statement of Mr. Ramirez follows:]

                   Prepared Statement of Andy Ramirez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Sensenbrenner. Your time is expired.
    The Chair will recognize Members alternately from the 
Republican and Democratic side under the 5-minute rule.
    The gentleman from Indiana, Mr. Hostettler.
    Mr. Hostettler. Thank you, Mr. Chairman.
    And I want to thank our witnesses for your contribution to 
our record on this very important issue.
    And, Sheriff Samaniego, I want to say hello to you and good 
to see you in your home surroundings. Appreciate your 
contribution to the record earlier this year as you testified 
before our Subcommittee.
    In that testimony, as a result of the question I asked you, 
you gave a very, I think, important perspective on the issue of 
one of the central elements of the Senate bill, and that is 
providing legalization, some of us would go as far as saying 
amnesty, for millions of illegal aliens currently in our 
country. And in your testimony, you talk about the potential 
results for that, if we should repeat the mistakes of 1986.
    Could you elaborate on what you think will happen with 
regard to the flow of illegal aliens even after an amnesty such 
as suggested by the Senate bill?
    Mr. Samaniego. Yes, sir.
    I know it's an extremely difficult situation as to what 
we're going to do with the 11, 12, 20 million that are already 
here. And when you start talking about amnesty or anything that 
sounds like amnesty, you fuel the hope of millions--millions of 
people all over the world that they, too, can come into the 
United States, and eventually we are going to do the same 
thing. We are going to repeat what happened in 1986 and what is 
about to happen here, from, you know, what I understand.
    I think amnesty is not the answer. You only encourage more 
people to come into this country, because they know that 
somewhere down the line, they're--they are going to be 
legalized.
    And in my opinion, I think we need a worker program.
    First of all, we need to control the border. Without border 
control, you might as well forget about what we're going to do 
with the ones that are here because the flow continues. More 
and more people are coming in because they--they have heard 
that the ones that are already here may get amnesty, and they 
hope to come in and get the benefit of that, sir.
    Mr. Hostettler. Thank you, Sheriff. And I also want to 
thank you and your department and officers of your department 
for their service to our Committee today and to the House of 
Representatives.
    Mr. Ramirez, at the outset, I want to thank you for your 
testimony, especially with regard to Agents Ramos and Compean. 
Their plight has reached the Eighth District of Indiana. I got 
a question yesterday in Brazil, Indiana, in west-central 
Indiana at a Rotary luncheon about the fate of these two agents 
who have faithfully served our country and have run upon this 
very discouraging and troubling situation. We will have an 
investigation of their situation, and we will go as far as it 
needs to go to determine what is going on there.
    Let me ask you, with your relationship with the Border 
Patrol, what happens of morale of Border Patrol agents after 
legalizing millions of illegals, given the fact that these 
individuals have, for their entire professional life, sought to 
enforce our immigration laws, secure the border, and some of 
them, in fact, as you and all of us know, have given the last 
full measure of devotion to that calling and have perished as a 
result in the line of duty? What happens to the morale of these 
folks, if we decide that what they have been doing for years is 
now going to be rewarded with legalization?
    Mr. Ramirez. First of all, thank you for your comments that 
you just made about an investigation. On behalf of the 
families, I would like to thank you for that.
    But with regards to the patrol, morale--and I've received a 
flood of e-mails from agents from all over this nation, from as 
far as Puerto Rico to San Diego, as far north as Blaine, all 
the way to Maine. Agents all over this nation understand what 
this case means. The morale has been shot. It is lowered ever 
since the reorganization into the Department of Homeland 
Security from Legacy INS.
    Agents' morale, not just about this case--this case 
actually is really the exposure, the--if you will, the taking 
off the Band-Aid from a tourniquet wound. Agents all over the 
nation report being directed to follow orders from above that 
were never provided to them beyond a verbal order. To do so, 
they risk all sorts of penalties, insubordination, which they 
can either be suspended or terminated for.
    For example, the--the pursuit policy is a fine example of 
that. In a letter I saw, dated in 2003, by the current Deputy 
Chief of the Border Patrol, Luis Barker, one of the things he 
did was actually state to the agents why they are not allowed 
to engage in that policy, and as a result of that, one of the 
things that happens is they could be fired.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman very much.
    I think you can see that we are strongly outnumbered here, 
so our time will be so much more abbreviated.
    But let me join the Chairman of the Subcommittee, as a 
Ranking Member on the Immigration Committee, there is no divide 
between Democrats and Republicans on the respect and admiration 
we have for the Border Patrol and law enforcement, in general.
    I welcome the investigation. We will do it 
enthusiastically. And we say that to the families, because we 
are fact finders. So we look forward to that.
    Let me, first of all, thank the witnesses, as well. And 
quickly pose my questions and concerns.
    Let me acknowledge Congressman Reyes and his presence here 
and thank him again for his outstanding leadership. We've 
worked together on many legislative initiatives.
    Sheriff, let me--again, it is well-noted that you have 
given us testimony before, and I guess it speaks to my point, 
not for your great service but that we have heard these 
questions asked and answered over and over again. I think what 
you are saying is, let's get to work.
    We thank--Ms. Siskin, I will not ask you any questions 
because you've given us a very good story of the two bills, 
which is your job. As CRS, you are a researcher.
    I commend you to H.R. 4044. That is my legislation that is 
supported by the National Council of Border Patrol Agents that, 
in fact, was the basis of the equipment portion of the 4437. I 
wrote that language of giving Border Patrol agents all of the 
necessary equipment that they have.
    Sheriff, I want to have you reflect, if you would, on Texas 
law as it relates to peace officers. You're actually forbidden 
from engaging in aggressive tactics without authority dealing 
with immigration issues. There's a body of law that you have to 
respect. I would simply say to you that this bill would 
conflict with that.
    The other point that I want to make on your testimony is 
that it seems that you are inclined to support 4437 for false 
reasons. It has $50 million in the Senate bill, $100 million in 
the House bill. That's what the conference is all about. You 
have my support for $100 million. But we can't get anywhere 
unless we sit down in the conference.
    So I would just simply ask, would you support a conference 
so that we could get the two bills together and come out with 
the $100 million? Would that be helpful to you?
    Mr. Samaniego. Congressman Jackson Lee----
    Ms. Jackson Lee. Yes.
    Mr. Samaniego.--a pleasure to have you here.
    I agree with you. This is not a Democrat----
    Ms. Jackson Lee. My time is short.
    Mr. Samaniego.--or a Republican thing.
    Ms. Jackson Lee. Right. And I agree with you on that. Let 
me just go on because my time is short.
    I thank you. So you agree that if we could work together.
    I'm holding in my hand the status--the document--the 
language of the 4437. You know, we cover over that. We're 
talking about vetoes and misrepresenting the language of the 
Senate bill, which really is a consultation.
    My friends, legal status, the very fact that you are here 
unlawfully, as Ms. Walker said, for any manner or reason, you 
would be subject to being in jail for 1 year and a day. This 
was added so that it could be a felon. And our own 
congressional research says that this would--you would make it 
a serious crime for which the accused would have the right to a 
jury trial.
    Ms. Walker, what would that do to the legal system? And, 
Chief Wiles--because I have to go so quickly and I'm going to 
have to interrupt you, just quickly give me an answer.
    And Chief Wiles, what would that do to your system of 
government?
    And by the way, the President has zeroed out the SCAT 
provisions, which reimburses you for any cost that you may have 
on immigration issues.
    Ms. Walker?
    Ms. Walker. Very fast, it's just a dichotomy between a 
civil and criminal violation with the accompanying rights to 
trial, rights to jury, and of course, the time frame that one 
spends in prison. In response to that, instead, right now, we 
deal with it by removal.
    Ms. Jackson Lee. Chief Wiles, what would that do to your 
system.
    And let me thank you for the statement of the Major Chiefs, 
Los Angeles, Chicago, I guess, Houston--many, many cities are 
opposed to provisions to force you to be engaged in immigration 
work.
    Mr. Wiles. Yes, ma'am.
    Ms. Jackson Lee. Of course, if someone has perpetrated a 
crime, you arrest them.
    Mr. Wiles. Yes, ma'am. Whether they're immigrants or not, 
and that was approved by the entire Major City Chiefs.
    But we don't have the resources to do that, and you're 
exactly right.
    And I'm really concerned about the State law on racial 
profiling, if we have our officers attempting to stop people 
that look like illegal immigrants.
    Ms. Jackson Lee. Let me just share with you why we are 
failing. The Republicans have done nothing since they were 
elected to office. Under Clinton, we have done more on the 
number of new Border Patrol agents. Under Bill Clinton, we've 
done more in INS fines, immigration enforcement. And 78 percent 
fewer completed immigration fraud cases have been--have been 
done under the Bush administration. It emphasizes my point, 
they have done nothing, and this is a stalling tactic.
    We need to go back to Washington, have a Conference 
Committee and be able to address the questions of the American 
people.
    I yield back.
    Chairman Sensenbrenner. The gentlewoman's time has expired. 
The Chair does not want to have to repeat the admonition that 
he has given. This is the fourth time that the Chair has 
reminded the audience that statements of support or opposition 
and expressions thereof are in violation of the rules.
    Somebody will say something on one side of the issue. The 
next person will say something on the other side of the issue. 
This is a hearing to receive testimony and answer questions, 
not a decision on which side can make the most noise.
    The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And I appreciate the hearing, and I do appreciate each of 
the witnesses here.
    We notice the lights keep coming in and going out. I don't 
know if that's to subliminally to tell people Congress is in 
the dark or not. I was thinking it was more the Senate. But in 
any event, we do appreciate your presence here.
    But I need to address some things very quickly. First of 
all, my colleague across the aisle had indicated--she said we 
are not listening to the American people. And I don't know what 
this ``we'' stuff is, but I've been coming home every weekend, 
listening to people, having town halls--town hall meetings. 
I've sent out a survey. I've gotten hundreds of thousands of 
responses back. We're doing everything we can, including this 
hearing, to listen to the American people, listen to witnesses.
    And yes, we had hearings on this bill before we passed it. 
But since there is a log jam, it is important to have 
additional evidence come in so that we can try to break the log 
jam and move this thing along.
    I also would like to mention that we do need immigration. 
We need immigration. We need assimilation. We need all the 
attributes that assimilating immigrants bring. But we do not 
need to abandon our laws.
    I keep finding this incredible irony, that we don't have a 
better neighbor to our south than we do. People accuse the 
United States of dividing families, when the fact is, as Mr. 
Ramirez has indicated, there is corruption across the border. 
As the sheriff had indicated----
    Sheriff, you indicated, in your written testimony, Mexico 
has done nothing in order to improve their lot. You've 
indicated the southern border is the weak link in our national 
security. I submit to you, it's not just the southern border. 
We ought to be protecting all of our avenues of entry and 
making sure people are not coming in to hurt us. But we do not 
need to abandon the enforcement of the laws.
    I would submit to you that the reason that this country has 
prospered, and now Mexico is forcing families to divide and 
some to come here in order to survive, is that they have not 
been a nation that enforced the laws as well across the board 
as we have. We've had our problems continue, but we are the 
greatest nation on earth in enforcing our laws. They have not. 
Corruption abounds, as we've heard the testimony here today.
    And so it's so ironic to have people come into this country 
and say, ``We want you to abandon enforcement of your laws,'' 
which will make us like the country they had to abandon in 
order to make a living. It's tragic.
    But I also noted, Ms. Walker made a good point about it's 
not just about border enforcement. We have a problem with our 
immigration service, whether you want to call it the INS as it 
was or CIS, ICE. We've got a problem. The President announced 
we want a target of 6 months to respond to applications. That 
was a good goal. But we've still got some areas that take two 
to 3 years to respond. That's outrageous, and we need to keep 
moving until we get them on track and responding appropriately.
    But, Mr. Ramirez, you brought up--and thank you for 
bringing up Agents Ramos and Compean. We owe our Border Patrol 
better than they've gotten. We've not adequately equipped them. 
We have not given them the support they need. And I'm glad to 
hear both the Chairman of this Committee and the Chairman of 
the Immigration Subcommittee indicating--and I urge that. We 
need to have an investigation, explanation and correction to 
get to the bottom of this. That is not fair to law enforcement, 
and it needs to be dealt with. And as a former judge and chief 
justice, that is certainly a pet peeve of mine.
    But I need to ask, Mr. Ramirez, do you have any evidence 
that corruption, as you say, has now made its way across the 
border, or do you think this is political correctness run 
amuck?
    Mr. Ramirez. No. It's actually a fact. When I speak with 
many Border Patrol agents and other agents from across the 
various services, everybody reports the same thing, that right 
now what we're finding is--as an example, the narcotics isn't 
coming across the river, it's coming right here through the 
city. It's coming through the city.
    San Diego, we have a port director who is now in prison for 
allowing narcotics to go through the port in San Diego itself. 
So we have--it's basically corruption on both sides, and it's 
all across.
    When you look at the northern border, to elaborate on that, 
you have a system called Project Athena that was never 
implemented by OBP, by the Office of Border Patrol, by Chief 
Aguilar or Chief Barker, and this was requested by both Chief 
Spades and Moran.
    Mr. Gohmert. I've just got a few seconds left.
    Mr. Ramirez. Yes, sir.
    Mr. Gohmert. And I appreciate that. We need to pursue that 
further.
    I do want to make sure everybody understands that the 
Chairman of this Committee had an amendment to make the felony 
reduced to a misdemeanor for illegally being in this country, 
and all but eight Democrats voted against making that a 
misdemeanor, and one of those people was my friend across the 
aisle----
    Ms. Jackson Lee. Absolutely.
    Mr. Gohmert.--Ms. Jackson Lee.
    Ms. Jackson Lee. We don't want any criminals.
    Mr. Gohmert. She did not want to reduce it to a 
misdemeanor.
    Ms. Jackson Lee. Would the gentleman yield? Would the 
gentleman yield.
    Mr. Gohmert. My time has expired, actually.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And I apologize for being late, but I will tell you I was 
late because we were doing the grand opening of the U.S.O. 
Center here at Fort Bliss. We've been working very hard on 
that. And I think we owe it to our military to stay true to 
them. So I apologize for being late.
    But having said that, welcome to El Paso, all of you.
    And I know, Mr. Chairman, that you had a chance to go out 
with the Border Patrol last night.
    And I would hope that my colleagues make an opportunity, if 
not on this trip, in the immediate future, to go out with the 
great men and women of the United States Border Patrol.
    Having been an agent, myself, I think that it's important 
to make the point that when you put on a badge and a gun, 
you're held to a higher standard in terms of the enforcement of 
the law. I'm of the opinion that you can't enforce the law if 
you can't respect it.
    So I support, Mr. Chairman, your having hearings on the two 
agents that were mentioned here, because I think that probably 
will be, at this point, the only way we are going to be able to 
clear the record on all sides. You know, a lot of things are 
flying in the Internet. There's a lot of phone calls coming in, 
a lot of misinformation out there. So I think hearings is the 
way to go, and I hope you do do it. And Mr. Chairman, I hope 
you will invite me to those hearings.
    Chairman Sensenbrenner. Consider it done.
    Mr. Reyes. Thank you, Mr. Chairman.
    I just wanted to make a few points, because one of the 
things that gets lost here is the fact that we are working with 
Mexico, and Mexico is cooperating on many different levels. I 
think, Mr. Chairman, you saw some of that cooperation last 
night between the agents and the Mexican police on the Mexican 
side of the border.
    That is--that is always a priority of any chief, to make 
sure that you're able to have that kind of cooperation and at 
least relationship. We cannot unilaterally do our jobs by 
expecting that our men and women of the Border Patrol can do it 
on their own without us seeking and requiring the cooperation 
of Mexico.
    Without--one of the issues that I wanted to make is that 
when we--when we talk about creating this new class of 
criminals, which I don't support--and I will stipulate to my 
good friend from Texas, Congressman Gohmert, that I voted 
against that as well, because I don't think we need to 
criminalize a whole new status of people.
    And the one thing that we never take into account--and I 
hope you will listen to this carefully, because I have been 
talking about this for the 10 years that I've been in 
Congress--we can't have enforcement--we can't say we're going 
to hire 2,000 Border Patrol agents this year, and then next 
year 200. It's got to be a steady growth because only then can 
you have the right balance and the right mix and the right 
expertise of experience-to-trainee agents. That's vitally 
important because these guys operate independently, on their 
own, and under very dangerous conditions. So we need to take 
that into account.
    The other thing that we don't want to forget is the support 
pipeline. When we increase the Border Patrol, we need to take 
into account that we need to increase U.S. attorneys, we need 
to increase U.S. marshals, we need to increase detention 
officers, we need to increase detention space, all of the 
things that work in unison if we're going to be successful. You 
can't choke off by thinking that more--strictly more 
enforcement is the--is the right answer.
    I was going to make a comment to my good friend from Texas, 
when he talked about the lights being dimmed. You know, after 
this hearing, I hope that people don't think that we are out to 
lunch either, because we are a long ways from finding a 
solution to this problem.
    And I will tell you this: Although I know that we are in 
disagreement about these hearings, I can tell you that my sense 
is that a lot is being learned by you, my colleagues in 
Congress, about what the community feels about immigration 
reform, about how hard the job is for our nation's Border 
Patrol.
    And the fact that the international border, like the 
environment, corruption doesn't respect an international 
border. I was making mention to a couple of my colleagues that 
three of the sheriffs that I worked with when I was chief down 
in McAllen succumbed to that and are doing time. Corruption 
does not respect the international boundary. We need to realize 
it. We need to understand that. And we certainly don't need to 
blame Mexico for the corruption that exists on the U.S. side.
    So with that, Mr. Chairman, thank you for giving me an 
opportunity to speak.
    Chairman Sensenbrenner. Thank you very much.
    The gentleman from Georgia, Mr. Kingston.
    Mr. Kingston. Thank you very much, Mr. Chairman. And I 
wanted to thank the Members of the Judiciary Committee and you 
for letting me tag along.
    This is part of a series of hearings. I believe there are 
eight different Committees that are having over 40 hearings 
around the United States. So there is, in fact, a lot of 
listening going on.
    And I also wanted to say to my friend, Mr. Reyes, it's good 
to be back in El Paso. I think that the country has a lot to 
learn from El Paso and Juarez and the cooperation that you have 
always had historically, in terms of economic overlap and 
emotional overlap and families and friends. There is a lot of 
leadership that has gone on in this border town that we can 
learn from in Georgia and everywhere else.
    I'm here from Georgia, because we have the seventh largest 
illegal alien population in the country, and it is something 
that has become a big issue no matter where you are and what 
part of the country.
    So, Mr. Ramirez, I had a question. And I think Ms. Walker 
alluded to why--how we get illegals in the State of Georgia. 
And as I understand it, from my Border Patrol tour yesterday, 
that the border here does a very good job, very thorough job in 
terms of the ports of entry--the port of entry. However, a lot 
of people, as Ms. Walker said, come and they overstay. They may 
rent a passport to get through the border. They might do 
everything legally. But once they're here, they overstay.
    Now, I was looking around the city, and I saw a lot of bus 
stations, and a lot of places where people who are legally here 
could get on a bus and go to Denver, Colorado, for example, 
and, perhaps, get through the checkpoint that's farther down 
the road.
    I also notice lots of advertising for Liberal, Kansas and 
Guymon, Oklahoma, which seemed to me very odd as opposed to, 
you know, Denver, a big hub city. But why would you advertise, 
not just at one bus station but at several bus stations, for 
Liberal, Kansas and Guymon, Oklahoma? What goes on in those 
cities?
    And is it possible that these bus services could be a 
conduit for people who come here illegally to get into the 
interior of the United States? And is that something that 
Friends of Border Patrol is looking at?
    Mr. Ramirez. Yes, sir. We actually are. Because one of the 
things we understand, in discussing this with many line agents, 
once you get past the line--and right now, there are stations--
and I'm not going to, obviously, identify them--that you could 
say are the back-duty stations. They're sending their agents up 
to the line as well.
    But reports have come in all over the country. Agents are 
being ordered to stand down. So when you are basically telling 
them, ``Go on the line but just stand there,'' as the Ramos/
Compean case further tells them, then what happens is, they've 
got a free shot to the interior.
    As I understand it, and a source just told me this within 
the past 2 weeks, the Albuquerque station--Border Patrol 
station here in this very sector is actually being shut down. 
Albuquerque is a transportation hub.
    Mr. Kingston. Let me interrupt you a minute.
    Because I guess what I saw yesterday is a very thorough job 
being done on the Rio Grande crossing in El Paso, Texas by the 
Border Patrol. But then, once folks are here, through a rented 
passport or whatever or, you know, because they have a visa to 
come here for a short period of time, but then they get on a 
bus and they go to someplace like Liberal, Kansas. Do you feel 
that that is a pipeline that we are ignoring? It gets outside 
the 25-mile limit of the Custom and Border Patrol here, and it 
goes under the ICE people.
    And are we letting our guard down there, and is that a 
critical checkpoint?
    Mr. Ramirez. Yes, sir, absolutely. And many chiefs and just 
managers that I've spoken with around the country have reported 
that ICE isn't capable of doing the job in the interior. They 
call the Border Patrol for help.
    Mr. Kingston. Why would so many bus stations here in El 
Paso be advertising Liberal, Kansas and Guymon, Oklahoma.
    Mr. Ramirez. Perhaps, for the job magnet.
    Mr. Kingston. So would that mean that there, on the other 
end, is an employer waiting who is somehow communicating and 
saying, ``Yeah, we will take these folks''.
    Mr. Ramirez. That's what we expect, yes.
    Mr. Kingston. And it would be that blatant.
    Mr. Ramirez. Absolutely, sir.
    Mr. Kingston. Okay. Ms. Walker, do you want to comment on 
that? Because you had mentioned overstays. And these would be 
folks who come in legally but do overstay and then become 
illegal. I just--you had mentioned that, and I just wanted to 
give you an opportunity to maybe address what we should do 
about overstays.
    Ms. Walker. Thank you for the opportunity.
    Overstay, though, when you talk about the 25-mile 
perimeter, it's also a different perimeter when we're talking 
about Arizona being 75 miles. What that means is still that 
I've been admitted into the United States, and I'm going beyond 
that perimeter. If I'm going to stay beyond 30 days, then I'm 
supposed to get an I-94 document, which then indicates my 
period of stay in the United States.
    As far as our ability to track, though, and to know whether 
or not someone overstays, that is something that U.S. VISIT 
attempts to address. But let's face it, I mean, what we have in 
order for people to get a laser visa, which is what Mexican 
nationals have, is that they must go through--pay $100 to go 
through a background check, be printed, and then they are 
subject to inspection not only at time of admission, but on 
every major thoroughfare out of El Paso, we have checkpoints 
that are manned by the Border Patrol. So they are checking. 
They check me every time I'm heading up to Ruidoso.
    Mr. Kingston. But would they check each and every person on 
a bus.
    Ms. Walker. Yes, sir. They certainly do.
    Chairman Sensenbrenner. The gentleman's time is expired.
    Mr. Kingston. Thank you, Mr. Chairman.
    Chairman Sensenbrenner. The Chair recognizes himself for 5 
minutes. Sheriff Samaniego, H.R. 4437, which was my bill which 
passed the House, incorporated the Culberson-Reyes language 
relative to the $100 million of assistance to the sheriffs of 
the 29 border counties on the southwestern border. How would 
you use the money that would come under this proposal? And the 
Senate's proposal is a lot different. But how would you use the 
money under the House proposal.
    Mr. Samaniego. Yes, sir. Thank you for the question.
    We are already doing what we told the Congress we were 
going to do, under 4437, where the Border Law Enforcement Act 
that was co-sponsored by Congressman Reyes, that we would put 
extra officers all along the border. It started in Texas from 
El Paso to Brownsville, and then it kind of mushroomed into New 
Mexico, Arizona and California, because the bill would finance 
all their operations, also.
    But we're doing that now, thanks to Governor Perry, who 
made a statement that he could no longer wait for the Federal 
Government to take care of the border. He felt a necessity for 
the State of Texas to take action, and he made funding 
available to the 16 sheriffs on the border for us to begin 
implementing Operation Linebacker. And we have been doing that 
with tremendous results.
    All we do is put extra patrols along--in the vicinity of 
the river. We're not on the line. We're not Border Patrolmen. 
We patrol the areas in the vicinity of the river, the 
neighborhoods, streets, et cetera.
    The main thing that has happened, we have deterred a lot of 
crime. We have made a lot of drug seizures. We have arrested a 
lot of criminals. And we have come across illegal aliens.
    And I understand we don't--we don't--we're not enforcing 
immigration law. But in the course of our duties, if you're in 
El Paso County, you're going to run into illegal immigrants. 
And if we're investigating a crime and we find that some of the 
individuals are here illegally, we will turn them over to 
Immigration or the Border Patrol.
    Chairman Sensenbrenner. Thank you.
    Chief Wiles, we had representatives in San Diego of law 
enforcement in California, and there seems to be the impression 
that the House bill mandates local law enforcement to enforce 
the immigration law. That is not the case. Neither the House 
bill nor the Senate bill mandate local law enforcement 
enforcing the immigration law. However, the House bill does 
allow local enforcement to enter into voluntary agreements with 
the Federal Government to work cooperatively in dealing with 
this issue.
    If that part of the House bill becomes law, would the El 
Paso Police Department be amenable to entering into a voluntary 
agreement? And if not, why not?
    Mr. Wiles. Well, the El Paso Police Department right now 
works with many Federal agencies. We work with the FBI, with 
DEA, the U.S. Marshal Service. We're willing to work in 
partnerships with the Federal Government when it's issues of a 
criminal nature.
    I don't think it's appropriate or right to ask our officers 
to enforce immigration law.
    Chairman Sensenbrenner. Well, if you have someone who is an 
illegal immigrant and his illegal presence in the country is 
obvious, who is suspected of committing a criminal offense 
which would be a violation of State and/or Federal law, 
wouldn't it be helpful for you and your officers to detain that 
illegal immigrant while the investigation put together the 
evidence that would necessarily seek an indictment for the 
criminal charge?
    Mr. Wiles. Well, don't get me wrong. Our policy now is that 
if officers come into contact with an illegal immigrant through 
lawful means, in other words, we stop an individual who's 
suspected of criminal activity and they happen to be an illegal 
immigrant, we can turn those over to the Border Patrol. It's 
not that we're totally ignoring them.
    My concern is that we do not want to become agents of 
immigration seeking out individuals who are here illegally.
    Chairman Sensenbrenner. Okay. Well, that's not the issue in 
the House-passed bill.
    I have one quick question for Ms. Walker. You represent the 
American Immigration Lawyers Association. If the legalization 
or amnesty or pathway to citizenship provision in the Senate 
bill becomes law, how much do you think you would charge 
somebody who would apply for the benefits under that?
    Ms. Walker. I have no idea, sir. I mean, right now, we're 
proceeding, through the American Immigration Lawyers 
Associations, to establish a pro bono network regarding those 
who are not able to afford legal services.
    And the goal here is that every lawyer is not seeking--is 
only seeking their own beneficial gain financially, then you 
negate all of my credibility and yours, as well, sir.
    Chairman Sensenbrenner. I just point out that, you know, 12 
million illegal immigrants, if the fee was $2,000 for that, 
that is $2,400,000,000.
    Ms. Walker. Why don't we talk about the smuggling trade 
right now and the amount of money they're taking in for our 
failure to act.
    Chairman Sensenbrenner. Thank you.
    My time is expired. We will have a second round of 
questions.
    Gentleman from Indiana, Mr. Hostettler.
    Mr. Hostettler. Thank you, Mr. Chairman.
    Sheriff Samaniego, in your testimony--written testimony, 
you reiterate testimony that was given by a Washington-based 
financial expert during a 1997 hearing on NAFTA in the Senate.
    And you say, ``Mexico cut a deal with the drug cartels. In 
return for depositing cartel monies in cash-strapped Mexican 
banks, cartels were given free use of Mexican states along the 
Mex/Texas border.''
    There's been a high level of documentation of corruption 
throughout Mexico's government, from the Federal level to the 
local level. That being the case and given the requirement 
under the Senate bill to consult with--with State, local and 
Federal leaders on the Mexican side, what is your confidence in 
the fact that corruption will not taint the consultation 
inasmuch as there will be input from the Mexican side?
    Mr. Samaniego. Well, I think I mentioned in my statement 
that I consider that like a homeowner asking the burglar if he 
can put bars on his home.
    And, you know, we have a problem. Mexico has not respected 
our border. They use it at will. And they have no respect for 
our jurisdiction. And for us to have to consult with them and 
ask them if it's okay to build a fence, I know what the answer 
is. Right after the bill was approved, there was a lot of news 
coverage, and they very strongly opposed any fence.
    And as I mention also in my statement, it is not in their 
benefit. It is not going to benefit Mexico if we beef up our 
border. If we build fences, if we put barriers and crossing 
points, it would virtually stop the flow of illegal aliens that 
are coming in.
    And Mexico gains a great deal with every individual that 
makes it into the United States and gets a job. They're sending 
back to their homes--I've heard several amounts, the most 
prevailing, I guess, is $20 billion a year. You know, Mexico is 
not going to get rid of that cash flow.
    Also, the--this was testimony that was given before a 
Senate Committee headed by Senator Joe Biden where this 
individual, Jonathan [sic] Whalen, testified that in return for 
putting the cartel's money in Mexican banks, they were given 
freedom along the U.S./Mexico border to operate.
    I've been here 50 years. I just completed 50 years in law 
enforcement. I can see that. There is no control of the Mexican 
government on the border. The drug cartels, the human smugglers 
control the Mexican side of the border.
    Mr. Hostettler. And if they control that side of the border 
and possibly even the political decisions of local, State and 
Federal officials along in that area, isn't it possible that 
the decision, with regard to--they make in our required 
consultation under the Senate bill with them, will be tainted 
by the fact that not only individuals who only wish to come to 
America for a better way of life but it's possible that--that 
input from Mexico will be over--will be shadowed by the notion 
that drug trafficking must continue into the United States as 
well.
    Mr. Samaniego. That is correct, sir.
    And we had the ambassador to the U.S. from Mexico here. He 
attended a symposium. He was interviewed by the newspaper and 
made a statement, Don't look at us as a--the problem, look at 
us as a source of the solution. And I keep looking and looking, 
and I keep hearing, you know, that they're doing all kinds of 
things. I do not see it. I'm sorry. I do not see their 
cooperation.
    Mr. Hostettler. Thank you.
    Yield back the balance of my time.
    Chairman Sensenbrenner. Gentlewoman from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    I would like to put on the record that I would hope that 
our Committee would hold hearings on H.R. 4044, the Rapid 
Response Border Protection Act, portions that are 
jurisdictionally under this particular Committee, in the very 
near future, because if this is a bipartisan effort, as has 
been suggested, or that Democrats are not, if you will, 
interested in comprehensive immigration reform, then I would 
commend a bill that has been supported by the Border Patrol 
organization to have that opportunity.
    I would just put on the record that, Sheriff, the 
legislation allows for a State to declare an international 
emergency and 1,000 Border Patrol agents to be dispatched to 
that State, in consultation with Department of Human--Homeland 
Security. My good friend Congressman Reyes is on that 
legislation. And do you think that would work for you?
    Mr. Samaniego. I'm not aware of all the details.
    Ms. Jackson Lee. But would it work if--if the State of 
Texas declared an international emergency and there was 
legislation that said they could dispatch 1,000 Border Patrol 
agents to the State, would that help you.
    Mr. Samaniego. Yes, ma'am. And let me tell you why.
    Ms. Jackson Lee. Sheriff, if you would, my time is short.
    Mr. Samaniego. Yes, ma'am.
    Ms. Jackson Lee. And I appreciate your answers. And I would 
just respect you, but I want to get some other answers in.
    Let me also make note that although we might appreciate 
what the State is doing, $100 million from the State coffers 
impacts negatively on non-performing schools in our State, lack 
of children's health care in our State. And frankly, I think 
it's important to note that immigration is a Federal issue. The 
failure of the immigration system should be on us, and we 
should be doing our work.
    Mr. Chairman, I'd like to add, if I could, I ask unanimous 
consent to put in the record a letter to the Speaker from the 
MALDEF president and the National Council of La Raza.
    Chairman Sensenbrenner. Without objection.
    [The information referred to follows in the Appendix]
    Ms. Jackson Lee. A memo from Luis Figeragra of the Legal 
Defense Fund.
    Chairman Sensenbrenner. Without objection.
    Ms. Jackson Lee. And a resolution from the mayor and 
senator and a number of officials from El Paso----
    Chairman Sensenbrenner. Without objection.
    Ms. Jackson Lee.--that has been stated on this issue.
    I want to pursue very quickly this question of what this 
bill stands for. I think that we are misinterpreting our 
purpose here if we are focusing on the title of this hearing 
about a veto, because there is no veto. The Senate bill simply 
says that you will consult.
    But diplomacy is a national issue. That's up to the 
president to sit down with the leadership of Mexico and address 
these failures. We did it, and it was done under the Clinton 
administration. We addressed these questions. That's why our 
numbers are so high. We had more Border Patrol agents. We had 
more fraud cases.
    Let me just say, this is what is the sticking point, 
Sheriff--and I want you to understand, and I hope you will be 
able to answer this question, and Ms. Walker and Chief Wiles--
this bill makes a felon, gives a felony status to the local 
priest, Catholic charities, to the relative that has in their 
house an unstatused individual.
    We've already heard this is a Federal issue, and therefore, 
the Senate bill provides security at the borders; what the 
Sheriff wants, a compromise will generate the relief for 
sheriffs.
    Which, by the way, Sheriff, you're not at the border. 
Operation Linebacker is that you're internal. You're the back-
up.
    Mr. Samaniego. The back-up.
    Ms. Jackson Lee. And we understand that. You wouldn't be, 
because it's a Federal issue to be at the borders.
    And so, Ms. Walker, what is the impact----
    And, Sheriff, let me just say this: Do you want to make a 
local priest a felon? That's what this H.R. 4437 bill does. 
They will be a felon if they are considered aiding and abetting 
an unstatused individual.
    Mr. Samaniego. Would you allow me to read one little 
paragraph.
    Ms. Jackson Lee. I would be happy to. My time is going. Is 
it yes or no? Do you want to make the priest----
    Mr. Samaniego. There's--it's not that simple, you know----
    Ms. Jackson Lee. But do you want to make the priest----
    Mr. Samaniego. There's a lot of circumstances. We--we need 
to secure our border. We need to secure----
    Ms. Jackson Lee. May I just have Ms. Walker----
    I thank you. Maybe you'll be able to answer later.
    Yes.
    Ms. Walker. Very briefly, we'll have very full prisons of 
attorneys and people providing assistance, including priests.
    And God knows what will happen to us in heaven. I have no 
idea about that.
    Thank you.
    Ms. Jackson Lee. Let me just say, I'd like to put this 
statement from the Catholic Diocese in the record.
    And I would simply say, Sheriff, if you want to finish 
answering the question.
    Mr. Samaniego. Yes, ma'am.
    Let me--it's not a simple yes or no. If somebody is aiding 
and abetting someone that is here illegally, we need to do 
something. You know, things are out of control.
    Ms. Jackson Lee. And the Senate bill does something. They 
want to create a procedure for that individual. But you would 
then be subjecting the priest----
    Chairman Sensenbrenner. The time----
    Ms. Jackson Lee.--to a criminal jury proceeding----
    Chairman Sensenbrenner. The time of the gentlewoman----
    Ms. Jackson Lee.--and going to jail.
    Chairman Sensenbrenner.--is expired.
    The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    As I understand, the current law prohibits encouraging or 
inducing and also prohibits aiding and abetting. That's 
generally the language we have in the State penal code here in 
Texas. But 4437 adds the words ``assists and directs'' to plug 
the gaps in the current law.
    And I can understand persons who believe that it should not 
be a crime at all. But it still kind of begs the question, 
wouldn't it be better, if that is your view, to have it a 
misdemeanor than a felony? So that, though, is still a little 
hard to understand if that's the position.
    But my good friend Mr. Reyes made the point that corruption 
doesn't recognize international boundaries, and that's what 
we've been hearing in the evidence here today, and that's true.
    But we've heard the expression before that capital is a 
coward, that money for investment will flow into areas where it 
is least at risk, which is one of the reasons so much money has 
come to the United States from investment and continues, 
because even though there is some corruption here and we 
continue to need to pursue it and never should rest, but that 
it is safer here than it is in Mexico because there is more 
corruption there.
    So I would submit to you that corruption is a coward. And 
we ought to encourage our neighbors to the south to be about 
the business of enforcing the law, and that needs to become 
with an--become an exclamation point.
    And I could not agree more with my friend Congressman Reyes 
who said we should not just hire 2,000 Border Patrol agents 1 
year and 200 the next. That has got to be an ongoing continuing 
battle. We appropriated, I believe, more than $275 million, 
more than the Administration had asked for last year, which 
shows really the heart of where we are in the House of 
Representatives.
    But I also think it's worth noting, when it comes to 
compassion and caring, the United States has traditionally 
voted for issues of compassion and human rights in the United 
Nations. And I haven't seen yet the new figures for 2005, but I 
saw the numbers for 2004 and was staggered to see that our 
neighbor to the south votes against the United States' position 
nearly three-fourths of the time. So it would be good to have a 
neighbor that was more on board with us in some of these areas.
    Now, we've also heard from the Chief that crime within the 
city of El Paso is not a major problem, and that the--
apparently, the reports are wonderful, indicating a great job 
by the local police.
    But I'd like to ask you, Sheriff, what problems, if any, 
are being experienced by rural land owners in the county that 
may be or is resulting from illegal entry to this country and 
to people's property?
    Mr. Samaniego. First of all, let me clarify----
    Mr. Gohmert. Could you move that mike a little closer.
    Mr. Samaniego. Yes, sir.
    Let me clarify the issue of whether illegal aliens are 
committing crimes in El Paso County or not.
    Mr. Gohmert. Okay.
    Mr. Samaniego. I have the statistics here for last year. We 
booked 15,733 illegal aliens into the El Paso County Jail, 
charged with a State crime or a Federal crime. And, to me, that 
doesn't indicate that we don't have a problem with them. We 
certainly do.
    Mr. Gohmert. Could I ask you, do you know what happened to 
those 15,000? Were they deported, or did they actually stand 
for the charge that was brought against them.
    Mr. Samaniego. Yes, sir. If they were tried by municipal 
court or county court or whatever, after their sentence was 
served, they are turned over to immigration. They take care of 
them. I don't know what happened to them, sir.
    Mr. Gohmert. Well, I know, having been a judge, I had one 
case where the guy had had multiple DWIs and had never been 
deported. And then he finally was driving drunk and hit someone 
and seriously hurt them and then came to my court as a felony. 
And since--I treated him as I would anyone who had had that 
many DWIs, and I sent him to prison. And then, within the year, 
he was back in my court. And I said, ``How did you get here?'' 
And he indicated that he, as soon as he got to the prison, was 
deported and naturally came right back and hit somebody else 
and committed another felony.
    And anyway, it is an ongoing problem. They don't just wait 
until they serve the sentence. I know two cases I had where 
they didn't wait.
    Chairman Sensenbrenner. The gentleman's time is expired.
    The gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    To my colleague from Texas, Mr. Gohmert--or Congressman 
Gohmert, when you talk about encouraging Mexico to enforce the 
law, I would remind all of us that that applies for us in what 
I have been saying in Congress, that we ought to be enforcing 
employer sanctions, which was passed in 1986. We haven't done 
that. We have not been able to get even a hearing on employer 
sanctions in Congress. That--that has to be a priority.
    We've had one hearing on H.R. 98, which includes the 
border--the Social Security card, a fraud-proof Social Security 
card and also the system----
    Mr. Hostettler. Would the gentleman yield.
    Mr. Reyes.--that won't----
    Mr. Hostettler. If I can, as Chairman of the Immigration 
and Border Security Subcommittee, we have had numerous hearings 
on both employer sanctions and on the impact of illegal 
immigration on employment of American citizens in our 
Subcommittee.
    Mr. Reyes. Okay. Reclaiming my time.
    Why--why is it so hard, when the Administration is 
controlled by the Republicans, the House and the Senate are 
controlled by Republicans, why can't we get employer sanctions 
enforcement?
    I wrote a letter to Secretary Chertoff, a couple of weeks 
back when he made an announcement that he was assigning 25 
prosecutors to border communities to prosecute immigration 
violations. I said, ``Announce that you are going to have a 
thousand of your Immigration Customs Enforcement agents start 
enforcing employer sanctions.'' That one announcement will 
serve to put employers on notice and to have them comply with 
the '86 laws, and then it will also send a message that you 
don't need to--you can't even consider coming back into this 
country, because you're not going to be able to get a job.
    We saw that in '86. I forget which--I think my friend from 
Georgia was talking about the morale in '86 about amnesty. We--
I was a chief in McAllen. The morale was fine, because in '86 
we thought finally Congress has got it right. Congress is going 
to help us with the pull factor by passing employer sanctions. 
Well, the law passed, but no resources. No priority was ever 
given that.
    Today, I get people that tell me, ``Why don't you pass this 
law or that law about illegal immigration?'' It doesn't do any 
good to pass a law if you're not going to enforce it.
    Let me just comment on local--local law enforcement 
enforcing the immigration law. The immigration law is the 
second most complex law in the world, next to maritime law. The 
Chief and the Sheriff have to be concerned about being 
personally liable for one of their officers going out and 
stopping a U.S. citizen because they look Hispanic or they look 
Puerto Rican or they look Haitian or something else, when in 
reality they are either citizens or they're lawfully in this 
country and it's a false arrest. You could get sued for that. I 
would be very uncomfortable. And it would entail a tremendous 
amount of training to get local and State officers to enforce 
that law.
    The issue of--as a Sheriff mentioned, we had both 
Ambassador Garza and Ambassador De Icaza for the Border 
Security Conference here a couple of days ago. They both 
highlighted the fact that we are much better served by 
cooperating. We are much better served by making sure that 
there's a partnership on this international border.
    You know, it's--it's more than a bit insulting to say, I 
don't see Mexico cooperating. Mexico does not respect our 
border, when just August 8th there was a Mexican official that 
was killed by the drug cartels because he was replacing an 
individual that hadn't done the job.
    The Mexican government repeatedly suffers losses. And I'm 
not talking about people moving away or people getting 
replaced, I'm talking about people dying because they're trying 
to help and cooperate and manage this border. We need to be 
very careful how we criticize Mexico when we expect them to be 
our partners.
    The last thing I want to say in the 15 minutes I've got 
left is that it is critical--15 seconds, I'm sorry.
    It's critical--it's critical that we look at a 
comprehensive reform package. You can't do employer sanctions 
without a guest worker program because you place our economy in 
jeopardy there.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Georgia, Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.
    We had talked earlier about the number of Border Patrol 
that had been hired under President Bush. And I just wanted to 
clarify for the record, when the President went into office, 
the number of Border Patrol agents was 9,096. Today, it's 
11,523. And by '08, it should be up to 18,319.
    In the last several years, they've apprehended 400,000 
criminals trying to get into the United States of America, 
400,000 known criminals, not just persons of interest. And 
that's in about 6 million people that they have apprehended.
    Mr. Ramirez, do you agree that currently the Border Patrol 
right now is cooperating and working somewhat with the Mexican 
government on the El Paso border and probably most of the 
borders?
    Mr. Ramirez. Well, that's actually the problem, because in 
working with the Mexican government, you are dealing with a 
government that has, as I stated earlier in my testimony, a lot 
of problems dealing with bribes. As has been repeatedly stated, 
there are a number of agreements that have been enacted over 
the past few years and signed by this Administration. But 
Mexico doesn't keep their end.
    Mr. Kingston. Well, the reality is, though, they are 
talking back and forth to their Mexican counterparts, sometimes 
with mixed results, but they are talking. Now the reason why I 
say that----
    Mr. Ramirez. If I can add this: In some cases, they're 
overtalking, such as the Civilian Border Observations that have 
taken place, where the DHS has lied to the public.
    Mr. Kingston. The reason why I say that is because there is 
a degree of local cooperation, and again, with mixed results. 
But to mandate some bureaucracy in Washington to define what 
consultation is and then get the State Department involved with 
international law on whatever legal law there is, that would 
certainly bog down the local Border Patrol. And therefore, 
having Mexican veto power over American law as respects 
modifying detention beds, modifying the fence, modifying 
virtual cameras or whatever, would slow down the effort of the 
Border Patrol. Is that not correct.
    Mr. Ramirez. Absolutely.
    Mr. Kingston. Okay. I wanted to ask another question. Ms. 
Walker.
    Ms. Walker. Yes, sir.
    Mr. Kingston. You had stated in your testimony that illegal 
aliens pay $7.2 billion in Social Security. Should illegal 
aliens be entitled to Social Security benefits in your opinion.
    Ms. Walker. If they've worked in the United States in order 
to put that money into our system, yes, they should. But--and 
the ``but'' that's important there is, we need a system that 
allows us to be able to fill employer needs and deal with 
legalizing those individuals.
    Mr. Kingston. Well, I understand that. I just wanted to 
make sure, though, that your association supports illegal 
aliens receiving Social Security money when they were in the 
United States working illegally.
    Ms. Walker. I take it you're a lawyer, as well.
    Ms. Jackson Lee. Would the gentleman yield? Would the 
gentleman yield.
    Mr. Kingston. I'll yield when I'm through with my 
questions, I'll be glad to.
    And let me ask you this: Sheriff, just on--and Ms. Walker, 
I really want to go down the line, so let me start with you. 
You may be the slowest, in a complimentary sense.
    Ms. Walker. Thank you so much.
    Mr. Kingston. I know how thorough you are, the answers.
    Do you support a biometric ID card, because that would 
eliminate a lot of the uncertainty and protect the employee and 
employer as well? Would you support a biometric ID?
    Ms. Walker. Are you asking me if I support a national 
identification card.
    Mr. Kingston. A biometric ID card for employment--well, I 
tell you what, you define what you would support. How about 
that.
    Ms. Walker. Well, let's talk about what we already have. I 
mean----
    Mr. Kingston. I tell you what, let me yield to you. Let 
me--I'm going to have to reclaim my time, because this--I would 
really like to go real quickly on the yay and nay and give me 
about 15-second response, and so I'm going to get back to you, 
Ms. Walker.
    Chief, biometric ID card, yay or nay? Good idea? Bad idea 
in some cases?
    Mr. Wiles. I think this is out of my expertise. But I would 
say, like a Social Security card, if there's some ID for 
employment that you would think would be appropriate, I would 
say yes.
    Mr. Kingston. Well, we're just talking tamper-proof ID card 
because of the trumped-up I-94s, I think is one of the big 
breakdowns right now that we're having.
    Mr. Wiles. Sure.
    Mr. Kingston. Mr. Ramirez.
    Mr. Ramirez. It has its merits, yes.
    Ms. Siskin. I abstain, being from CRS.
    Mr. Kingston. That's a wise decision.
    Are you going to yield your time to Ms. Walker? She'll take 
it.
    Ms. Siskin. Go ahead.
    Ms. Walker. I need a lot of time.
    Mr. Kingston. Sheriff.
    Mr. Samaniego. If it's for individuals that are here 
legally, and I presume that would be the case, yes.
    Mr. Kingston. And Ms. Walker.
    Ms. Walker. All right. I'm going to try to make it short.
    You said ``trumped-up I-94 card.'' To get an I-94 card, I 
have to go through, before that, I have to get a passport and I 
have to get a visa, if I'm a Mexican national, not a Canadian 
national. To get that, I have gone through biometric U.S. VISIT 
registration. I've been checked against the class database. 
I've had also facial recognition done upon me, before I'm 
allowed to be admitted into the United States.
    So we have biometric ID concerning those who legally come 
here. It's U.S. citizens who don't have it. That's the problem.
    Mr. Kingston. Okay. So--but would you say that our 
documentation program now is insufficient.
    Ms. Walker. For foreign nationals or for U.S. citizens.
    Mr. Kingston. For foreign nationals. The only reason why I 
say that is because we talk about employer sanctions, which I 
support.
    Ms. Walker. Yes, sir.
    Mr. Kingston. But one way to be----
    Chairman Sensenbrenner. The gentleman's time has expired.
    Mr. Kingston. I would like to correspond with you later, 
and I appreciate it. We'll talk.
    Chairman Sensenbrenner. Okay. The Chair recognizes himself 
for 5 minutes to wrap up the hearing.
    Thank you all for coming to this hearing. Thank all of the 
witnesses for their testimony and the answers to the questions.
    I think this shows how tremendously difficult dealing with 
the entire issue of immigration is. I think we all agree that 
the current immigration system is completely broken. We have a 
net increase of about 550,000 illegal immigrants in the 
country. The apprehensions by the Border Patrol and 
deportations are about a million a year.
    And we've also got a problem on the northern border. Next 
week we're up in New Hampshire and then upstate New York. So 
it's not just the southern border that is causing the problem.
    It seems to me that in order to do something that works, we 
have to secure the border first, and this is more important in 
the post-9/11 situation than before the terrorist attacks of 
September 11th. And we have to cut off the magnet of cheap jobs 
through the enforcement of employer sanctions.
    I was in the Congress in 1986 when the Simpson-Mazzoli bill 
was passed. And for the record, I voted against it because I 
thought it wouldn't work. And I'm sorry to say that I was 
right. I would like to see an immigration reform bill passed 
that works, because we have one opportunity now to do it and to 
do it right. And if we blow this opportunity, I'm afraid that 
the situation is only going to get worse. The number of illegal 
immigrants will continue to flood across the border. They will 
impact on our schools. They will cause a collapse of our 
healthcare system, particularly in border communities, and they 
will put a tremendous tax on the social services that are 
provided more by private church-related organizations than by 
public agencies because the '96 welfare reform bill made 
illegal immigrants ineligible for most public assistance 
benefits.
    So the border security provisions, and that includes the 
$100 million that Sheriff Samaniego has talked about, as well 
as increasing the fines and employer sanctions and giving 
employers a way to verify Social Security numbers so that they 
can get around the fraudulent documents that are presented at 
the time an application for employment is made, complete with 
an I-9 form, is vitally important. Because if we don't crack 
down on the bad actors that violate the law by hiring illegal 
immigrants, no matter how many fences we build and how many 
Border Patrol officers we have on the border, the magnet will 
be there to draw people across the border.
    So having a workable employer sanctions proposal is 
absolutely essential, because there is no way anybody can get 
around the fact that in most cases, it is cheaper to hire an 
illegal immigrant than to hire either a citizen or a legal 
immigrant with a green card.
    Now, there have been a number of mentions made on why we 
haven't gone to conference. The answer to that is simple. We 
haven't gone to conference because the Senate has not sent the 
House the papers to send the bill to conference. They have kept 
the papers in the Senate even though they passed their bill 
before Memorial Day. When we passed our bill in December, the 
papers were sent over very promptly on that.
    And the Senate also has a problem in their bill in that 
there is $50 billion in new taxes on the American public 
contained in the bill. The Constitution is quite plain that tax 
legislation has to originate in the House of Representatives, 
so the Senate bill is unconstitutional on its face because of 
that violation of the provision of the Constitution.
    Now, there have been a number of allegations that have been 
made about 4437, which I think are flat-out wrong. First of 
all, I favor reducing the penalty for illegal presence from a 
felony to a misdemeanor. But it should be a crime, because if 
you are illegally present in the United States, whether you 
entered illegally or overstayed your visa following a legal 
entry, you violated the law, and there ought to be some 
punishment that is attached to that. And having it as a 
misdemeanor would be a 6-month jail term, and I would just 
compare that with the 6-year jail term for illegal presence in 
Mexico that is a part of that country's law.
    We've heard allegations, including those today, that the 
House-passed bill would throw priests and soup kitchen 
operators in jail. The 1986, in the Simpson-Mazzoli bill, 
encouraging an illegal immigrant to stay in the country was 
made a Federal crime, and that bill was passed with the support 
of most of the religious organizations.
    Our U.S. attorneys have said that the current law makes it 
very hard to prosecute ``coyotes,'' the criminal alien 
smugglers who make money over bringing people across the 
border. But the House-passed bill was done at their suggestion 
to try to get more of these people convicted. I think that's a 
good goal.
    And I would ask everybody who is concerned about this issue 
that if you don't like the language in the House bill, for the 
sake of getting at the ``coyotes,'' help draft some language 
that is going to make everybody happy, because the coyotes are 
bad actors and the more of those we can get out of commission 
the better off we are.
    So again, thank you for hearing all of these arguments.
    Mr. Reyes. Mr. Chairman, I have a unanimous consent 
request.
    Chairman Sensenbrenner. Yes.
    Mr. Reyes. Could I ask that my statement be entered into 
the record and also the border security by the numbers.
    Chairman Sensenbrenner. Without objection, so ordered.
    So thank you.
    Ms. Jackson Lee. And a point of inquiry, Mr. Chairman.
    Chairman Sensenbrenner. State your parliamentary inquiry.
    Ms. Jackson Lee. Mr. Chairman, would it be appropriate that 
this Committee or Members here join in a signature letter to 
the House leadership encouraging a conference to be had, based 
upon the hearings that we've had, in order to reconcile and add 
language----
    Chairman Sensenbrenner. Reclaiming my time.
    Without getting the bill from the Senate, we can't have a 
conference.
    Ms. Jackson Lee. If I could continue my inquiry.
    Chairman Sensenbrenner. That's very--that's very clear 
under the rules. Now----
    Ms. Jackson Lee. If I could continue my inquiry.
    Chairman Sensenbrenner. That was not a proper parliamentary 
inquiry. But if you have a proper parliamentary inquiry, please 
state it.
    Ms. Jackson Lee. My inquiry is that the Senate has at least 
named its conferees, the House has not. I think if you put the 
pressure on, you could proceed.
    Chairman Sensenbrenner. Yeah. The gentlewoman is not making 
a proper parliamentary inquiry.
    The Senate has named no conferees. They have not requested 
a conference. They have not sent the papers to the House so 
that the House could request a conference.
    I would suggest--I would suggest talking to the Senators on 
that because the House has done everything that it can under 
the rules that have been around since 1789 relative to 
Conference Committees.
    Ms. Jackson Lee. Then you would join me in asking for both 
houses to move forward in a signed letter.
    Chairman Sensenbrenner. Well, I think there are ways to 
move forward, and we don't have to have a press release and a 
letter on that.
    Since the purpose of this hearing has been concluded----
    Ms. Jackson Lee. Well, I think any efforts that we could 
make to encourage----
    Chairman Sensenbrenner. The purpose of this hearing----
    Ms. Jackson Lee. Any effort that we could work together 
would be appropriate.
    Chairman Sensenbrenner. The gentlewoman is not recognized. 
She was--she said she had a parliamentary inquiry, and those 
weren't parliamentary inquiries. Those were----
    Ms. Jackson Lee. Point of information, Mr. Chairman.
    Chairman Sensenbrenner. Well, the rules do not provide for 
points of information.
    Ms. Jackson Lee. I'm left hopeless.
    Thank you, Mr. Chairman. I yield back.
    Chairman Sensenbrenner. Okay. Thank you again for coming. 
It has been a pleasure to come to El Paso.
    Let me just state for the record that lest anybody be 
concerned that this Committee is only concerned about the 
southern border, next weekend's hearings will be in Concord, 
New Hampshire and Queen's Way, New York.
    So have a good day, and please drive home safely.
    And this hearing is adjourned.
    [Whereupon, the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement by the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary

    Ordinarily, hearings are held before bills are passed, not after. 
Hearings are used to gather information that is needed to draft the 
bill. The House immigration reform bill, the Border and Immigration 
Enforcement Act of 2005, H.R. 4437, was passed on December 16, 2005, 
but the hearings were not begun until August of 2006, more than seven 
months later.
    The Senate immigration reform bill, the Comprehensive Immigration 
Reform Act of 2006, S. 2611, was passed on May 25, 2006. Normally, when 
the two houses of Congress have both passed a bill on the same subject, 
the bills go to a conference at which differences are worked out. 
Instead of following the normal order and moving forward to a 
conference, the Republican leadership in the House has moved backwards 
to the hearing stage of the legislative process. The reason is obvious. 
They want to avoid a conference because immigration reform divides 
their party and this is an election year.
    H.R. 4437 was introduced on a Tuesday, and without a single hearing 
before the full Judiciary Committee, it was marked up, moved to the 
floor, and passed the following Friday. This was done without hearings 
and without any input from the minority party in drafting the bill. 
There was no deliberative process between the two parties despite 
America's need for meaningful immigration reform.
    Even though Republicans hold the White House and a majority in both 
the House of Representatives and the Senate, they refuse to go to a 
conference and develop a real immigration reform package that would 
produce meaningful, long-term results. Instead, they are stalling. They 
stalled before Congress broke for the August district work period, and 
they are continuing to stall. The Republican- controlled Congress is 
doing nothing.

    <bullet> Nothing about the 12 million people in this country using 
false identifiers.

    <bullet> Nothing to better secure the border.

    <bullet> Nothing to protect the jobs of American workers by 
implementing a real employer verification system.

    <bullet> Nothing to help our border patrol agents.

    <bullet> Nothing to change the fact that our immigration system is 
inadequate and broken.

    <bullet> Nothing.

    The failure to act has made our immigration problem exponentially 
worse. State and local governments are being forced to assume 
immigration responsibilities on account of the failure of the Federal 
Government's immigration policies. In recent years, we have seen their 
frustration with Congress's inaction turn to desperation as they try to 
legislate federal immigration issues at the state level.
    If the Federal Government is not going to act this year to change 
this situation, we should at least reimburse State and local 
governments for the immigration expenses they have incurred. For 
instance, we should provide funding for the State Criminal Alien 
Assistance Program so that California taxpayers will not have to bear 
the $635 million burden of incarcerating criminal aliens. Instead, the 
President zeroed out funding for this program.
    Our failure to act means that employers who need low-skilled labor 
can continue to exploit undocumented workers. Few if any of them offer 
health insurance to these workers and the costs are passed on to state 
and local governments.
    The House Republicans did not hold a single hearing on H.R. 4437 
before they passed it. Now, they are holding an unprecedented number of 
field hearings, but the focus is on what is wrong with the Senate bill, 
S. 2611. The House Republicans were not interested in hearing from the 
public or experts about HR 4437 before it was passed, and they still 
are not interested. If this were not the case, these hearings also 
would be about whether H.R. 4437's enforcement-only approach would 
work. The reality is that we need comprehensive immigration reform if 
we are going to fix our broken immigration system, such as is provided 
by the Senate immigration reform bill, S. 2611, not just a new 
enforcement program.

                               __________
            Letter from Texas State Senator Eliot Shapleigh

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
Letter from Mexican American Legal Defense and Educational Fund and the 
                      National Council of La Raza

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Statement of Luis Figueroa, Legislative Staff Attorney, Mexican 
              American Legal Defense and Educational Fund

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
   Letter from the Committee on Migration of the U.S. Conference of 
                            Catholic Bishops

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
         ``Mayor's Congreso on Immigration Reform Resolution''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
